<html>
<title> - COMBATING CLIMATE CHANGE IN AFRICA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                   COMBATING CLIMATE CHANGE IN AFRICA

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 15, 2010

                               __________

                           Serial No. 111-105

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
  56-54PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jonathan Pershing, Ph.D., Deputy Special Envoy, Office of the 
  Special Envoy for Climate Change, United States Department of 
  State..........................................................     8
Mr. Franklin Moore, Deputy Assistant Administrator, Bureau for 
  Africa, Office of the Assistant Administrator, United States 
  Agency for International Development...........................    16
His Excellency Leon M. Rajaobelina, Chairman of the Board, 
  Madagascar Foundation for Protected Areas and Biodiversity 
  (Former Malagasy Ambassador to the United States)..............    45
Fred Boltz, Ph.D., Senior Vice-President, Global Strategies, 
  Conservation International.....................................    52
Kenneth P. Green, D.Env., Resident Scholar, American Enterprise 
  Institute......................................................    58

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey, and Chairman, Subcommittee on Africa 
  and Global Health: Prepared statement..........................     3
Jonathan Pershing, Ph.D.: Prepared statement.....................    11
Mr. Franklin Moore: Prepared statement...........................    18
His Excellency Leon M. Rajaobelina: Prepared statement...........    48
Fred Boltz, Ph.D.: Prepared statement............................    55
Kenneth P. Green, D.Env.: Prepared statement.....................    61

                                APPENDIX

Hearing notice...................................................    80
Hearing minutes..................................................    81
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    82
The Honorable Donald M. Payne: Material submitted for the record.    85
Questions submitted for the record by the Honorable Earl 
  Blumenauer, a Representative in Congress from the State of 
  Oregon (responses not received prior to printing)..............    91

 
                   COMBATING CLIMATE CHANGE IN AFRICA

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room 2172, Rayburn House Office Building, Hon. Donald M. Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. Good morning. The hearing will come to order. 
Let me thank you for joining the Subcommittee on Africa and 
Global Health here this morning for this critically important 
hearing entitled Combating Climate Change in Africa.
    The threat of climate change is serious and extreme, and it 
is very urgent that we take a look at it. While the impact is 
felt in every country around the world, developing countries 
have disproportionately experienced the devastating effects of 
climate change.
    The United Nations Intergovernmental Panel on Climate 
Change, the IPCC, has reported that in 2008 alone more than 20 
million people were displaced by sudden climate-related 
disasters; an estimated 200 million people could be displaced 
as a result of climate impact by 2050; climate change currently 
contributes to the global burden of disease and premature 
deaths, and adverse health impacts from diseases like malaria, 
dengue and diarrhea will be greatest in the low-income 
countries.
    African countries in particular are most vulnerable to the 
impacts of climate change, such as desertification. Many 
countries--for example, Kenya and Ethiopia--increasingly face 
extreme droughts and serious floods, making their population 
more food insecure and more prone to diseases associated with 
malnutrition. The United Nations reported in 2009 that 
approximately 23 million people in seven East African countries 
relied on food aid due to decimated crops from a decade of poor 
rains.
    Addressing climate change is a vital component of 
development, and we must devise cost-effective adaptation 
assistance targeted at the most vulnerable communities in 
Africa. Conservation farming, storing water in time of drought 
and early warning systems can have a tremendous impact in 
preparing communities for disasters. Strengthening methods of 
assessment of adaptation, providing education and training for 
public awareness and building capacity are also critical 
components of combating climate change.
    The United States has committed to providing technical 
support and financial assistance to combat climate change. In 
the fiscal 2010 Congressional Budget Justification for Foreign 
Operations or CBJ, President Obama requested funding for global 
climate change and related clean energy assistance for Africa 
totaling $104.6 million, $95 million in development assistance 
and $9.6 million in economic support funds.
    In addition to adaptation programs, strong mitigation 
policies are essential to combating this global crisis. We must 
begin to reverse the damage that has been done by reducing 
growth in greenhouse gases emissions while promoting energy 
efficiency, forest conservation and biodiversity.
    African countries contribute comparatively low levels of 
greenhouse gas emissions, the GHGs. The International Energy 
Agency estimates African nations emitted only 3 percent of 
world carbon dioxide, CO2, from human-related sources in 2007. 
However, Africa is likely to warm more than the global average. 
That is not fair.
    Without policies to significantly reduce global GHG 
emissions, most climate models project the global average 
temperature to rise above natural variations by at least 2.7 
degrees Fahrenheit above the 1990 levels. The current global 
rates of deforestation contribute to more than 20 percent of 
human-caused greenhouse gas emissions, which makes 
deforestation a considerable contributor to human-induced 
climate change.
    The African Union's common African position has given 
priority to adaptation, but African nations must also develop 
policies now that will reduce carbon emissions in the future. 
The United Nations Climate Change Conference in Copenhagen was 
an historical first step in the global effort to aggressively 
combat climate change.
    The Conference was attended by 120 heads of state and laid 
out ambitious points of action. Although it fell short of 
legally binding agreements, countries made significant 
financial commitments, and we must follow through on those 
commitments and work toward a legally binding agreement 
sometime in the future.
    Climate change impacts every aspect of development, from 
reducing poverty, to economic growth, to peace and stability. 
The challenges are great indeed. However, combating climate 
change can be an opportunity. African nations can leapfrog some 
of the steps western nations took and mistakes that they made 
in their development.
    The 2004 Nobel Peace Prize winner, Wangari Maathai of 
Kenya, said,

        ``We have a responsibility to protect the rights of 
        generations, of all species, that cannot speak for 
        themselves today. The global challenge of climate 
        change requires that we ask no less of our leaders or 
        ourselves.''

    We in the United States must work with the leaders and 
civil society of African nations to combat climate change and 
its effects and infuse these efforts into our development 
framework. I sincerely thank the panel of esteemed witnesses 
for testifying before us today and sharing their insights on 
what we as a nation are doing and what more must be done to 
address this critical issue.
    I will now turn to our ranking member, Mr. Smith, for his 
opening remarks.
    [The prepared statement of Mr. Payne 
follows:]<greek-l>Payne deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Smith. Thank you very much, Mr. Chairman, and thank you 
for calling this very important hearing. In the past year and 
particularly since the British climate-gate scandal of last 
November, the debate on climate issues has been more vigorous 
than ever.
    Whereas in the past the views of some climate scientists 
were ignored or suppressed, that is changing dramatically, and 
I for one welcome this. I have been following the arguments 
closely and believe that this debate must continue in light of 
concerns of manipulated data and efforts to suppress dissenting 
views within the scientific community, and we need to re-
examine all the relevant questions with an open mind.
    I look forward to going over some of those fundamental 
questions with our witnesses. Is the climate really changing 
and how significantly? To what extent are the changes caused by 
human behavior? What can we reasonably expect the consequences 
to be, and how can we best respond?
    One of our witnesses today who is an expert on climate 
change and on issues related to it, Kenneth Green, was resident 
scholar at the American Enterprise Institute for Public Policy 
Research. He is a man who has served as Executive Director of 
the Environmental Literacy Council, Chief Scientist for the 
Center for Studies and Risk, Regulation and Environment at the 
Fraser Institute, and he has also been an expert reviewer on 
the U.N. Intergovernmental Panel on Climate Change Working 
Group in 2001.
    He makes a very important point in his piece, and I would 
ask unanimous consent that it be made a part of the record----
    Mr. Payne. Without objection.
    Mr. Smith [continuing]. Called Climate Change: The 
Resilience Option, by Kenneth Green, which was published in 
October 2009.
    [Note: The information referred to is not reprinted here 
but is available in committee records.]
    Mr. Smith. I would hope that members would take the time to 
read it, but one question that he asks is, ``What is 
better,''--this is his quote--``climate resilience or climate 
stasis?''
    In general, the mainstream response to the issue of climate 
change has been reactive, pessimistic, authoritarian and 
resistant to change. Those alarmed about changing climate would 
stand earthward the stream of climate history and cry stop. 
Enough. Rather than working to cease human influence on 
climate, they want to find a way to make the climate stand 
still.
    This focus on creating climate stasis has led to policy 
proposals that would have been laughed at or dismissed as wacky 
conspiracy theories in the 1980s, but mainstream anticlimate 
change activists are proposing nothing less than the 
establishment of global weather control through energy 
rationing, regulations and taxes, all managed by a global 
bureaucracy with a goal of leading humanity into a future that 
will become smaller, more costly and less dynamic over time. 
Throughout his piece he makes a point talking about the 
resilience option, and I hope that he will expand upon that 
during his testimony.
    Mr. Chairman, much is at stake for Africa. Home to hundreds 
of millions of people who at present are ill-equipped to deal 
with any of the potentially bad side effects of climate change 
that some African experts fear--crop failures, drought, 
desertification, disease, flooding in the coastal cities and 
mass migration.
    Most experts see Africa because of its developing economy 
as more vulnerable than any other continent to the risks of 
climate change. Mr. Chairman, because of its emerging 
development, Africa creates relatively little of the greenhouse 
gases some experts blame for the climate change, and there is 
little the policies of the African Governments can do to affect 
the African climate per se.
    This means we have a responsibility, in concert with real 
risk, to bear in mind that the people of Africa with whom we 
share our planet as we consider questions regarding climate 
change and, most importantly, the appropriate response, a 
responsibility we can perhaps meet best by helping African 
countries to become more resilient.
    But most of all, I believe Congress has to get this right 
and right now. This means we need to re-engage in the 
scientific and policy debates over climate change. Those 
debates are far from over. Again, I thank you for calling this 
very important hearing and yield back.
    Mr. Payne. Thank you. Congresswoman Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman. I am going to be very 
quick. As CRS has noted, induced climate changes are expected 
to increase water stress, reduce arable land areas and crop 
productivity, reduce fishery productivity, increase 
malnutrition, increase coastal hazards and expand disease 
vectors. So all of this means fewer jobs, more pandemic 
illness, more displaced people, and it will undoubtedly lead to 
political and social instability.
    So my ears will be open. My questions today will be about 
how is climate change directly related to Africa's and by 
extension the United States' own security and what can the 
United States do to help Africa in that regard. So thank you, 
Mr. Chairman.
    Mr. Payne. Thank you very much. Our first panel we will 
hear from Dr. Jonathan Pershing, deputy special envoy for 
climate change. Dr. Pershing has served as deputy special envoy 
for climate change since March 2009. In this capacity as deputy 
special envoy, he is the head of delegation for the United 
Nations Climate Change Negotiations.
    From 1990 to 1998, he served as deputy director and science 
advisor for the Office of Global Change at the U.S. Department 
of State. Before joining the State Department, Dr. Pershing 
headed World Resources Institute's Climate and Energy Program 
and was a faculty member at American University and the 
University of Minnesota.
    From 1998 to 2004, Dr. Pershing headed the Energy and 
Environmental Division of the International Energy Agency 
headquartered in Paris, France. Dr. Pershing earned a doctorate 
of philosophy in geophysics and is the author of many articles 
and books on climate change and climate policy.
    Also joining our first panel is Mr. Franklin Moore, deputy 
assistant administrator for the Bureau of Africa at the United 
States International Development Agency (USAID). A career 
member of the Senior Executive Service, Franklin C. Moore was 
appointed as deputy assistant administrator for the U.S. Agency 
for International Development's Africa Bureau in January 2008.
    Previous to his appointment, Mr. Moore served as director 
of the Office of Environmental and Science Policy within the 
Agency's Bureau for Economic Growth in Agriculture and Trade 
since October 2002. Additionally, Mr. Moore has served as 
acting deputy assistant administrator and director for the 
Agency's Global Center for the Environment. He received a 
master's degree in agricultural economics, as well as a 
certificate in African Studies from the University of Wisconsin 
at Madison. Mr. Moore also studied for his Ph.D. in development 
studies at the University of Wisconsin-Madison.
    Mr. Moore has lived in both Western and Southern Africa. He 
has worked in approximately 40 countries overseas and was 
instrumental in getting the United States to join the 
Convention on Desertification, which was approved by the Senate 
about 8 or 9 years ago. It is really a pleasure to have both of 
you with us.
    Dr. Pershing?

 STATEMENT OF JONATHAN PERSHING, PH.D., DEPUTY SPECIAL ENVOY, 
 OFFICE OF THE SPECIAL ENVOY FOR CLIMATE CHANGE, UNITED STATES 
                      DEPARTMENT OF STATE

    Mr. Pershing. Mr. Chairman, Ranking Member Smith and 
Representative Woolsey, thank you very much for having a chance 
to testify before you today. I have provided a longer version 
of my testimony for the record, which if it would be okay I 
would like to summarize here in just some brief comments.
    Mr. Payne. Without objection.
    Mr. Pershing. This is my first appearance before this 
subcommittee, and I very, very appreciate your holding this 
hearing and indeed your interest in the issue. It is one which 
I think you all have noted will affect the entire world, but 
which you have also noted will affect the poorest and the most 
vulnerable, a great many of whom are in Africa, perhaps the 
soonest and the most severely.
    Let me echo some of the comments that you have each made 
about the severity of the problem. It is an issue which has 
garnered unprecedented international attention. At the U.N. 
Climate Convention session in Copenhagen in December, as you 
noted, Mr. Chairman, more than 120 heads of state 
participated--unprecedented--including 23 from Africa. At that 
meeting, due in no small part to the personal participation of 
President Obama and Secretary Clinton, we adopted the 
Copenhagen Accord.
    The Accord does a number of key things. It calls for 
countries to limit greenhouse gas emissions to a level that 
would avoid some of the damages that we have been talking 
about, a rise of less than two degrees Celsius. It calls for 
both developed and developing countries to list the specific 
actions or targets they intend to set toward a take to cut 
their emissions.
    It calls for full transparency in that process and it sets 
some provisions for financing, globally approaching $30 billion 
over the next 3 years and setting a goal of mobilizing $100 
billion a year from both public and private sources by 2020. 
And finally it calls for establishing some new technology 
mechanisms, enhanced action on adaptation, key for this region 
in particular, new incentives for forest protection, also 
critical for this particular reason.
    African nations were extremely active in the negotiations 
of the agreement in Copenhagen. The session marked the first 
time that the region had a common position, and the African 
Union subsequently endorsed the Accord at its summit earlier 
this year.
    I want to make one additional point, which has to do with 
U.S. activities. The world pays enormous attention to what we 
do, and your own efforts here in Congress are closely watched. 
I wanted to warmly commend and thank the House of 
Representatives for moving our country one vital step forward 
by passing the American Clean Energy and Security Act.
    The passage of this bill had a major impact on the nature 
of our international discussions and demonstrated that the U.S. 
is serious about climate change and clean energy. It is clear 
from the ongoing international negotiations that the world 
eagerly awaits similar progress on legislation in the Senate.
    Let me turn to Africa for a moment then. Africa's share, as 
you noted, Mr. Chairman, of greenhouse gas emissions is very 
small. Sub-Saharan Africa, only about 6 percent of global 
emissions of the six greenhouse gases, and as was also noted 
about 3 percent of the CO2 on the energy side, but it 
encompasses about 12 percent of the global population.
    But as you have also noted, if emissions are relatively 
modest, the impacts are not. Africa is one of the most 
vulnerable continents to climate change, and the vulnerability 
is exacerbated by a range of challenges such as poverty, 
governance and the all too frequent natural disasters and 
conflicts.
    The litany is sobering. Just a few. Seventy percent of 
families are dependent on agriculture. The Intergovernmental 
Panel on Climate Change projects that agricultural production 
and food security is likely to be severely compromised. Also 
according to the IPCC, the population at risk of increased 
water stress--something that you have done a great deal of work 
on--is projected to rise by between 75 and 250 million people 
due to climate change. That is by 2020. By 2050, water stress 
could affect 350 to 600 million people in Africa.
    Climate change may also contribute to conflict. A recent 
report co-authored by the Institute for Sustainable Development 
and the Institute for Security Studies identifies links between 
climate change and conflict in Africa due to water scarcity, 
limited arable land, increasing floods and droughts.
    We recognize that successfully addressing climate change in 
Africa will acquire political commitment on the part of 
leaders, broader engagement by local communities and civil 
institutions and practical results-oriented activity on the 
ground. To support that, we have proposed substantial increases 
in foreign assistance.
    The Fiscal Year 2010 appropriation includes approximately 
$1 billion for international climate efforts to the Department 
of State, the Department of Treasury and the U.S. Agency for 
International Development. The President's Fiscal Year 2011 
budget of about $1.4 billion targets these same agencies, and 
the contribution is split between bilateral assistance and 
contributions to multilateral climate change programs.
    In addition, the Fiscal Year 2011 budget request would 
allow several other agencies to provide technical and financial 
assistance with a climate focus, approximately $100 million, 
and would provide an additional approximately $400 million from 
nonclimate specific activities that have climate benefits.
    The fact that our climate assistance goes through a variety 
of mechanisms makes it a bit hard to say exactly how much goes 
to every specific recipient, but we estimate about 20 percent 
of the State and USAID climate assistance in 2010 and around 30 
percent of the total in 2011 would benefit African countries.
    In closing, let me raise just a few points. Climate change 
is a both real and an unfortunately accelerating threat. The 
U.S. and the world must act quickly and aggressively to curb 
our emissions if we are to avoid the most severe damages. We 
can and we should assist the world's most vulnerable to adapt 
to the effects of climate change and to help support developing 
countries in building their capacity to develop low emissions 
and sustainable pathways that, as Mr. Smith has stated, need to 
be resilient.
    Efforts to address the impacts of climate change and 
support low carbon development in Africa will serve U.S. 
strategic priorities. It will strengthen democracy, increase 
investment, improve health, help present conflict and 
effectively address transnational challenges.
    Thank you again, Mr. Chairman, and I look forward to 
answering any questions you and the members of the committee 
may have. Thank you very much.
    [The prepared statement of Mr. Pershing follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much.
    Mr. Moore?

       STATEMENT OF MR. FRANKLIN MOORE, DEPUTY ASSISTANT 
   ADMINISTRATOR, BUREAU FOR AFRICA, OFFICE OF THE ASSISTANT 
     ADMINISTRATOR, UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Moore. Good morning, Chairman Payne, Ranking Member 
Smith and Representatives Watson and Woolsey. Thank you for the 
opportunity to testify before you again. I have submitted 
testimony for the record, but with your concurrence would like 
to make a short statement.
    Mr. Payne. Without objection.
    Mr. Moore. Climate change is one of the premier development 
challenges of our generation. In my statement I will 
concentrate on two points: Adaptation because of its 
relationship to resiliency and our interaction with African 
organizations, including the African Union.
    If climate risks and opportunities are not taken into 
account across the entire portfolio of the United States' 
development efforts, if we continue what is called business as 
usual, if there is not a twinning of climate and development, 
then we risk making investments that will fail to meet long-
term development objectives or, worse, make Africa even more 
vulnerable to the effects of climate change.
    For example, coastal development pursued without 
consideration to a long-term rise in sea levels can put human 
lives and economic endeavors at risk. Populations that are not 
the most vulnerable now may become more vulnerable 20 to 30 
years from now because of the results of climate change. Twenty 
to thirty years from now the route into and out of poverty may 
change. Access to food and water may change, and burdens of 
disease may change.
    As you have mentioned, Mr. Chairman, as Dr. Pershing also 
mentioned, in particular for Africa the reductions in soil 
moisture, changes in water cycles and the effect that has on a 
continent where 71 percent of the land is arid, semi-arid or 
dry subhumid will be tremendous. We can come back to that in 
questions if you would like.
    Adaptation to climate change is about proactively taking 
these expected shifts into account in our development planning 
rather than responding later when we will not be as effective, 
adaptations to actions taken to help communities and ecosystems 
cope with actual and expected changes in climate by building 
resilience. This adaptation can be achieved by first reducing 
exposure, establishing disaster plans or building codes that 
prevent construction in highly vulnerable places.
    Second, reducing sensitivity, planting better adapted crops 
or building more robust infrastructure and, third, increasing 
adaptive capacity, diversifying economic activities, building 
human capacity, improving access to information and early 
warning systems.
    How do we make adaptation investments? USAID is taking 
three routes. First, science and analysis for decision making. 
USAID will make investments in scientific capacity to improve 
climate information predictions and analysis to identify 
vulnerable populations, sectors, ecosystems, regions and 
activities.
    Second, effective governance for climate resilience. USAID 
will invest in diffusing this information and improving the 
capacity to use climate information in an analysis and decision 
making, including improving public communication and education, 
the strengthening of communities and civil society and private 
sector engagement to improve our performance in implementing 
climate-proof activities.
    This will lead to the integration of adaptation strategies 
into development solutions across the broad range of the 
development portfolio. In some cases, the insertion of business 
as usual will need to be reversed through examples, so our 
third group will be in some cases to implement climate 
solutions.
    Let me turn briefly to the subject of organizations. The 
African Union is increasing its capacity to become operational. 
Next week, during consultations between the AU and the United 
States, USAID will begin a discussion leading to a formal 
memorandum of understanding that will assist our ability to 
provide more operational support in a variety of areas, 
including climate change, in particular the African Union's 
ClimDev Program.
    However, AID has long worked with a number of African 
subregional organizations. With the Economic Community of West 
African States, ECOWAS, we have worked on access to energy, 
including reducing the flaring of natural gas associated with 
oil production.
    We are working with the Secretariat of the Southern African 
Development Community, SADC, to assist and facilitate 
investments in energy infrastructure projects that also lower 
the carbon footprint.
    We have worked with the Common Market for Eastern Southern 
Africa, COMESA, its Working Group on Climate, Agriculture, 
Forests, Land Use and Livelihoods, to highlight best practices, 
create enabling conditions and highlight innovative sources of 
finance.
    Our broadest and most useful impacts have been with SILS in 
West Africa where we focused on food security and natural 
resource management and with COMESA where we focused on 
conservation farming, as mentioned by you, Mr. Chairman.
    We must act quickly and effectively to help Africa prepare 
for the wide ranging, long lasting environmental and human 
challenges that climate change will bring. Without effective 
adaptation, Africa will only see the threats that cause hunger, 
disease and conflict increase, but if we work together to 
address climate change across every sector we can forge a way 
forward that not only prepares Africa's most vulnerable people 
to cope with new pressures, but also creates better 
opportunities, better living conditions and better lives.
    Thank you, Mr. Chairman and Ranking Member Smith and 
members of the subcommittee for your support. I look forward to 
the questions.
    [The prepared statement of Mr. Moore follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much. I thank both of you for 
your very interesting testimony.
    Dr. Pershing, in your opinion what are the main pillars of 
the Africa Union's (AU) common position, which defines Africa's 
collective agenda in the international climate change talks?
    Mr. Pershing. Thank you very much, Mr. Chairman. There are 
a number of elements to it. They have talked about looking for 
equity. Their view is that at the moment the process is one 
which I think you have pointed out. They are a very small share 
of the total contribution to global emissions, but a 
disproportionately large share of the impacts, and they are 
looking really at the inequity of that kind of circumstance.
    They are looking for assistance. They are looking to find 
themselves ways that we, the world--not just the United States, 
but other donor nations around the world--can help them emerge 
from this period of development with a more sustainable 
pathway. That includes efficiencies in the energy sector. That 
includes improvements in the land use and forestry sector, and 
it also includes resilience and adaptation capacity for the 
damages that we all see coming and can't avoid.
    And then finally they would like to have a more significant 
voice in the negotiations. Their view is that historically they 
have been really underrepresented in the process. There has 
been a concern that the African community more widely doesn't 
tend to have a voice at the small tables, and if they do that 
voice is a single individual who is vastly outnumbered by 
others from the developing world, as well as the developed 
world, and so part of their hope is to be more active.
    They have been living up to this. I came back from the most 
recent round of negotiations just on Monday, and over the 
course of the weekend, in which we had a short discussion, the 
Africans played a much more active and very constructive role.
    Mr. Payne. Thank you. How would you actually characterize 
the U.S. response to the AU's common position?
    Mr. Pershing. We have been quite supportive of it. There 
are a number of key elements, and I just list the three that I 
walked through.
    With respect to the issue of this equity problem, we have 
made a clear case that we expect a great deal more from the 
major economies than we expect from the poorest and the least 
capable ones, many of those in Africa.
    It doesn't rule out all of the Africas. We actually have 
expectations for South Africa that are quite substantial, and 
they are living up to them, but we make a distinction between 
those who don't have capacity and need assistance and those who 
do have capacity and should be pressed to move forward.
    We have been working with them. We had some very extensive 
consultations with them in the run-up to Copenhagen and since 
then in the context of the negotiations to help elicit the 
positions that they are worried about and to help them both 
frame them and bring them into the mainstream of the 
discussion.
    And we have been focused very extensively in our financial 
dealings and in our financial efforts both in terms of the 
development of our administration's budget, as well as in 
considering the multilateral financing on the needs of this 
community as they have been articulating themselves.
    Mr. Payne. And finally, although the Africa Union's common 
African position has given a priority, as we mentioned, to 
adaptation, are there appropriate ways for African nations to 
contribute to greenhouse gas emissions mitigation as well?
    Mr. Pershing. Thank you very much. Yes, there are quite a 
number and some very significant.
    If we take a look at the major forest basins around the 
world, there are three that we probably are most focused on. We 
all think often about the Amazon Basin. We think about 
Southeast Asia. Many people don't think so much about the Congo 
River Basin. It is an extraordinary resource. It is a part of I 
think people often refer to those communities as the global 
lungs of the planet.
    If we can't work aggressively and successfully to reduce 
deforestation we can't succeed, and the countries in that 
region are actively working with us and together among 
themselves and with other donor countries to build that 
capacity, so an enormous effort there.
    The South Africans in parallel, big energy issues there. 
The Nigerians, significant energy issues on their side, land 
use change across the board not just in the Congo Basin, but an 
extensive series of opportunity in the energy sector and the 
land use sector on global mitigation.
    Mr. Payne. Thank you very much. Mr. Moore, let me ask you. 
In your opinion, how can we use our efforts to fight climate 
change in Africa as an opportunity to sort of see how we can 
move in that direction?
    Mr. Moore. Thank you, sir. Let me start by adding a piece 
to what Jonathan has just said in terms of mitigation because 
he talked about deforestation, but another critical aspect of 
mitigation has to do with that land degradation, which is 
desertification.
    And in this case, as we look at land management practices 
and as we work with farmers and communities moving from current 
practices which release greenhouse gases, the conservation 
farming which does not and helps to sequester greenhouse gases 
better, we also have some possibilities with new crop varieties 
to also improve their ability in terms of what they produce and 
improve their productivity in producing it so they actually can 
earn more money per hectare rather than just producing more 
crops.
    There is an example where I think we can see some 
differences in the way in which Africans respond to climate 
change.
    Mr. Payne. I didn't know if Africans were listening and 
were trying to call you to put in some additional points.
    You mentioned something. Offhand, can you think of any 
African country that in the past 3 or 4 or 5 years because of 
assistance from USAID or different kinds of farming 
techniques--fertilization or irrigation--have gone from a 
negative agriculture production to a positive one? Is there any 
example you can think of offhand?
    Mr. Moore. I can give you two countries where through 
conservation farming we see not only an increase in their 
production, but also probably a higher payoff to their 
individual farmers. Those would be in Zambia and Malawi.
    As I mentioned, we have done some work with COMESA at 
looking at a combination of USAID, COMESA and the World 
Agroforestry Center in Nairobi looking at some different 
schemes that look at conservation, farming and the integration 
of tree crops in those farming areas that we are beginning to 
see some exciting responses.
    If one wants to look historically, one could look at the 
world that USAID engaged in with Niger 30 years ago, and it was 
work that we engaged in with them over forest tenure and land 
tenure and moving that tenure from the government to 
communities.
    Interestingly enough, 30 years later we are beginning to 
see a tremendous response in the resiliency of those farmers as 
they face different periods of drought and floods and their 
ability to diversify their income from only agriculture from 
crops to agriculture from crops and fruit trees.
    So that is the best long-term case, and the short-term, the 
last 4 or 5 years, Zambia and Malawi would be cases I would 
point to.
    Mr. Payne. Just finally, and then we will have our ranking 
member. The land issues are big issues in Africa--Kenya, 
Ethiopia, throughout Zimbabwe: How does the land issue factor 
into Africa's overall development in the area of agriculture or 
climate change and the whole desertification question?
    Mr. Moore. I would say the land issue and land tenure is 
probably the most critical issue as one looks at not only how 
one responds in the short term, but how one responds in the 
medium and long term.
    In the case of Niger, as I pointed out, farmers were not 
prepared to plant trees and go through the work of planting 
trees on land that the tenure and the benefit of the tenure was 
going to to the government. They were prepared to do that on 
land where the tenure and the benefit from that tenure went to 
those farmers.
    That is a classic case of being able to establish either 
ownership rights or long-term use rights in tenure schemes that 
allow those individuals who are working the land to reap the 
benefits. If one is moving to things like conservation farming, 
again there is a strong link between how long do I have rights 
to benefit from this new technology and my implementation of 
the new technology, so it is critical.
    Mr. Payne. Thank you very much. I know that on the 
utilization of land, for example, in Namibia before the 
independence you would have large tracts of land that the white 
settlers owned. One perhaps would be used for farming. The 
other would just be laying dormant and not productive.
    We would find the same thing I think in Zimbabwe to some 
extent and in South Africa. So I know that the land issue is 
really a major, major issue, as you have mentioned, and I 
appreciate your comments.
    Mr. Smith?
    Mr. Smith. Thank you, Mr. Chairman. Dr. Pershing and Mr. 
Moore, thank you very much for your testimony today and for 
your work.
    You know, both Chairman Payne and I come from a state that 
has been very much challenged over the last three or four 
decades on environmental issues, so we I think share a deep 
concern for whether it be ocean dumping, pollution, toxic waste 
cleanup, all the issues that we have had to face because of 
irresponsibility that went on for decades that preceded it, and 
certainly we are not out of the woods yet.
    So when you talk about a cleaner development in Africa, 
being able to get it right, I would suggest that the more we 
can do along those lines the better so that they are more eco 
friendly.
    And their people. You know, I actually chaired the Autism 
Caucus and have come to the agonizing conclusion that the 
triggers, and there are many potential triggers, are not just 
something that America is dealing with. I have been in Nigeria. 
I know that there is one estimate. It may be a high estimate. I 
don't know that, but I know a number of the NGOs there. They 
are concerned about autism in Nigeria.
    And one estimate was 1 million children suffer from that 
developmental disease or disability and could that be because 
of flaring or could that be because of a lot of other issues 
that are connected to fossil fuels. It could be because mercury 
is certainly one of the expected triggers. So I thank you for 
your testimony.
    I do have a couple of questions I would like to ask. Dr. 
Green has written, and I quote, ``It is fair to say that 
scientific understanding of which factors contribute to change 
in the earth's climate is still in a very early stage. Even the 
experts at the IPCC acknowledge this to be the case.'' Do you 
gentlemen agree with that? If so, or not, how early of a stage 
are we in in that actual fundamental understanding about is 
this manmade?
    Mr. Pershing. Let me start with that particular question. 
My own thinking about this is that we are not all that early. 
If we take a look at the science of climate change, the issue 
has been around now for, give or take, about 130 years.
    Some of the first work was done at the turn of the last 
century--not the most recent one, but the previous one, the 
late 1800s--in Sweden, a lot of work in Europe, looking at the 
consequences and where people thought things were. The physics 
of the basic understanding of black body radiation and how that 
proceeds is quite well understood, the physics of the change in 
atmospheric concentrations also quite well understood.
    I think where the issue lies is our ability to predict what 
will happen in the future and to make any serious assessment 
about the precision of the impacts in a specific location, and 
what we are seeing now is an effort to try to expand that 
capacity.
    So, for example, if you are interested in knowing whether 
or not the next raft of hurricanes will come through and batter 
the New Jersey coast, I would give you very low odds. If you 
wanted to look at it in the same way as to whether or not it 
would affect the central part of Africa or in fact look at 
storms coming through the Indian Ocean, I would give you very 
low odds.
    If, however, what you want to say is that the consequence 
of climate change is going to be a warming of the oceans and 
the change in the warming of the oceans leads to an increased 
probability of intensity of storms, high odds. Very reasonably 
good probability.
    So it is then about where we are in that sequence. I would 
say we are well beyond the basic science into a determination 
of the specifics, but we can make some quite strong policy 
analyses and justifications for action based on what we know.
    Mr. Moore. Very quickly, sir, I actually don't deal so much 
with the science of the climate change part. I leave that to 
Jonathan, but I would say from a development point of view it 
doesn't matter whether it is human or not. The reality is one 
has to look at adaptation to vulnerabilities, and we realize 
that they are increasing, and we must build in resilience. So 
that is true no matter what the cause is.
    Mr. Smith. You know, in reading both of your statements the 
whole idea of hypotheses versus real science and whether or not 
we are dealing with something that is provable or at least with 
realistic expectations.
    Mr. Moore, you said that rain fed farming may drop in some 
African countries by as much as 50 percent by 2020, and wheat 
could disappear from the African continent entirely by 2080. I 
know you attribute that to the IPCC 2007 report. And in like 
manner, Dr. Pershing, you said that crop revenues could fail by 
as much as 90 percent in 2100. These are really long-term 
projections. You know, to make decisions based on something, I 
mean, how strong is the science that this is likely to happen?
    I remember when Paul Erlich did his population bomb, and 
frankly it unleashed some very Draconian responses, including 
the one child per couple policy in China, which has made 
brothers and sisters illegal, has led to forced abortion, all 
kinds of deleterious and I think catastrophic consequences.
    It was based on those longer term projections. We would be 
out of energy, remember they were saying, by the year 2000. 
Well, that certainly hasn't happened. So I am just wondering 
how much reliability is there to those kinds of what is going 
to happen in the year 2100?
    Mr. Pershing. Let me make a couple of points about it. I 
think that the analysis of the IPCC should be taken for what it 
is. It is a series of scenarios that try to project forward 
based on expected policies that are currently in place. It 
doesn't include climate policy.
    So, for example, if we were to try to do something about 
this problem--and the doing something could range from reducing 
greenhouse gas emissions to finding crops that could withstand 
additional salinity or tolerate drought or tolerate additional 
heat--we would have a different model and those kinds of 
statistics would not be borne.
    At the same time, it is very clear that we are already 
beginning to see certain kinds of impacts. The statistics 
suggest without in my mind much doubt at all that we are well 
beyond a simple variable, that we are beginning to see these 
damages and that they look increasingly severe because of 
existing stresses in the environmental arena. That means water 
stresses, temperature stresses, population stresses, needs for 
arable land, that whole series of things.
    So we are at the tipping point in some of the places, and 
Africa in particular is incredibly vulnerable to very small 
changes. Whether wheat disappears or not, and here I fully 
agree with Franklin. Whether wheat disappears or not, the odds 
of it being much, much more difficult to sustain a family with 
much less water is real, and we understand that.
    Mr. Smith. Okay. I did note, Mr. Moore, that you had said 
despite a lack of extensive data in many countries, so I am 
always concerned when we have very little data and we make huge 
extrapolations from the little data that we have.
    Let me ask another question with regards to the population 
control issue you just mentioned, Dr. Pershing. Population 
pressures was the word you used. Is the Obama administration 
seeking to combat climate change in Africa by reducing the 
number of African children? I would hope that this is not going 
to become a pretext for population control, which we have seen.
    You know, there have been many pretexts for it in the past. 
Even the U.N. Population Fund, which is now trying to piggyback 
its agenda with climate change, said for the most part--this is 
right off their Web site--countries with high rates of 
population growth contribute relatively little to greenhouse 
gases and other irreversible global ecological threats.
    But I have reviewed much of the other pro abortion 
organizations' and population control organizations' 
statements, including those on the Web sites, and they see this 
as an engraved invitation to say Africa needs more population 
growth.
    As you point out, 12 percent of the world's population 
contributes 6 percent of greenhouse gases. Again, I am not sure 
how that is all arrived at. I know the numbers probably, but 
how do we determine 6 percent? But it is very little. We know 
that, and I think that is a good given.
    Could you answer that? Is this going to be another? I say 
that because people like Paul Kagame in Rwanda have now said we 
need child limitation policies of a three child per couple 
policy. He got that from the U.N. FPA and China. His people 
visited Beijing 2 years ago, came back, as did other African 
leaders, and said we need child limitation.
    And if we blame the victim, the child, as a carbon breather 
for climate issues, I think we are going down the wrong street, 
and it is antithetical to respect for human rights and children 
in Africa. You know, I believe in adaptation. I believe in 
resilience, but it shouldn't put children at risk and in harm's 
way. Dr. Pershing?
    Mr. Pershing. Let me just very briefly answer the question 
with one word. No, that is not the policy.
    Mr. Smith. I appreciate that. And I will ask one final 
question, Mr. Chairman. The issue of unintended consequences.
    I read Dr. Molly Brown of NASA's Goddard Space Flight 
Center's statement. I am sure you have read it as well. She 
talks about and we all remember when ethanol was all the rage. 
I was for it. We were all for it because we do want biofuels. 
We want alternatives to fossil fuels.
    But then all of a sudden there was a huge spike in food 
that was unanticipated. The response was a little bit weak at 
first, but I think with switchgrass and other alternatives I 
think we have gotten to a better place, but I am worried about 
what she said in her conclusions. She said increased temps and 
change in water cycle are likely to require adaptation in local 
agricultural systems in Africa.
    She says, Dr. Molly Brown, that cap in trade are likely to 
increase every price, which will have a spillover effect--
energy prices, I should say--on food prices due to the coupling 
of the food and energy markets. She also said that use of 
biofuels will put direct upward pressure on food pricing, which 
is the last thing on earth that Africa needs.
    I am just wondering how you work through that in terms of 
that unintended consequence of spiking food prices in Africa.
    Mr. Pershing. I would say we work through that by looking 
at those systems that increase the production and productivity 
in an agricultural sector, whether that agriculture is intended 
for food or it is intended for fuel.
    When you couple it with climate, it means that one begins 
to look at some of those potential tree crops that can be 
biofuel tree crops that survive well on degraded lands and 
begin to make sure that the research that is done on them 
allows them down the road to be released to fill that need.
    But a large portion of the response is increasing the 
production and productivity across a whole range of crops and 
livestock so that one is able to meet not only the food needs, 
but the fuel needs and other needs that agriculture provides 
for.
    I would just say quickly as we look at wheat, whether or 
not that comes to bear is partly dependent upon the research 
that goes into wheat crops that looks at how do we create wheat 
crops that flower, for example, at a higher temperature? How do 
we create wheat crops which are resistant to stem rust or leaf 
rust, because that may be climate change, but they may occur 
for a whole variety of other reasons.
    It could occur in a year where your climate variability is 
quite different and one would want to be able to meet that 
need. So I think in part some of it is research for the 
scenarios because whether they are climate change scenarios or 
other scenarios, we need to be prepared for them
    Mr. Smith. Thank you. Thank you, Mr Chairman.
    Mr. Payne. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman. I have to ask a 
direct question in response to Congressman Smith.
    My question to both of you would be isn't it true that 
giving women the ability to control the size and timing of 
their families through family planning and pregnancy 
prevention, that given these resources there is a direct impact 
on the health of the family and the economy of that family and 
of the communities, which in turn----
    How does this get to you? I am not trying to make this 
political. Which in turn allows these communities to respond to 
the environmental needs that will be forced upon them or 
prevention needs that we need to be helping them with.
    Mr. Moore. I guess my one word answer would be yes.
    Ms. Woolsey. Yes.
    Mr. Moore. I would expand on that by saying you have talked 
about two things, economic opportunity and women and their 
desire to do child spacing, the size of their families, et 
cetera, and those are highly tied.
    The piece you didn't point out is that to the degree that 
we make economic opportunity and education available to women 
that that tends to have an effect on family size, child 
spacing, et cetera, in ways that help for Africa, which faces a 
tremendous youth bulge and a tremendous growth in population 
currently in some countries that provide alternatives and I 
think do not lead one to some of the problems that 
Representative Smith pointed out because women are spacing 
their children, as opposed to some other particular means.
    Ms. Woolsey. But if you would yield to just one more little 
question on this? If they don't have available to them the 
education for family planning and the ability to prevent 
pregnancy--I know it is because they are insisting on it the 
more educated and the more independent they become, but we 
still need both parts.
    Mr. Moore. I agree with that.
    Ms. Woolsey. Thank you. All right. So then I have two 
questions, one to you, Mr. Moore. You cautioned us about 
business as usual, and then you began speaking of USAID 
studies, and I immediately responded oh, yes. Business as 
usual. Let us study something that we already know there are 
things we should be doing.
    Maybe we need more studies, but what do we already know and 
where is the support missing and the funding for USAID and 
other NGOs and through the United States of America? What 
programs should we be working on that we already know that we 
are shortchanging, or are there any?
    Mr. Moore. I tend to think that we are beginning to work on 
many of the programs where the shortchange may be, but let me 
give you an example. We know that water cycles will change. We 
know that there are some areas, and we have seen this through 
climate variability to date, that will echo between having 
drought and having flood.
    As we look at water management, and it is something that we 
are very actively looking at with the State Department now. As 
we look at water management, those are the types of things that 
we need to bring on board as we look for those activities and 
the design of those activities not just now, but how we see 
them in the future.
    The same would be true with community location. As I tried 
to highlight in my testimony, we do expect sea levels to rise, 
so how one deals with communities that are at or below sea 
level currently is something that we need to take a look at and 
make sure we are managing.
    Certainly in developed countries like the Netherlands they 
are well down the road in looking at things like that, so it is 
just things like that that need to be more fully integrated 
into our portfolio, and I think we have begun to do that.
    Ms. Woolsey. Mr. Chairman, I am beyond my 5 minutes. Can I 
match you guys?
    Mr. Payne. Certainly. We don't discriminate against women.
    Ms. Woolsey. Oh, yes. Oh. So, Dr. Pershing, you mentioned 
that we need to increase foreign aid, and of course we all 
agree with you on that, but would you suggest that we just 
increase it in general, or do you think it is important that we 
increase the percentage of foreign aid that be directed to 
Africa or both, and how would you use those funds if we direct 
them to Africa?
    Mr. Pershing. So I think the answer to the first is yes, in 
general. I think the United States doesn't live up to what I 
think it could do.
    I think that we have an overall obligation or 
responsibility, if you will, but also a self interest in that 
increase, and I think it behooves us to think about all aspects 
of that as we look at our foreign assistance package, and I 
think part of this process that we are all involved in is to 
think about what priorities we design with that increased 
assistance.
    With respect to it, I think that in my world the climate 
change issue is one that needs to be integrated across the 
board, and Franklin spoke to this about the fact that we have 
substantial assistance programs already underway, many of which 
could well be undercut because we have not paid attention to 
the climate change consequences in development programs.
    If you take a look at a water program, one can think easily 
of the example that you put funding into building hydroelectric 
systems, but you didn't pay attention to the fact that you are 
going to lose the river flow, and all of a sudden that perfect 
dam is now standing in the middle of a dry bed. It is not 
exactly a good spend for your financing.
    When you don't have enough, you want to use it as well as 
you can use it. That kind of integration seems to be at the 
heart of what I think we are proposing in the budget and the 
finance. There are also key pieces that specifically focus on 
the climate change aspects, things that are not general 
development assistance that would not happen but for climate 
change, things that really speak to a change in fundamental 
long-term trends that we have to manage.
    So I can look at variability in the system. I can be 
resilient against that, but what if I am at a place where I am 
looking at a complete loss of water supply or a place that is a 
coastal development where sea level rise will inundate the 
entire shore? I have a very different model there. That is a 
really specific climate model that I think we need explicitly 
to be working on.
    Africa is one of those places that I think has been low and 
needs to be raised, and in that context I am delighted that you 
guys are thinking about this.
    Ms. Woolsey. Thank you.
    Mr. Payne. You don't have a second question? Okay. Mr. 
Flake?
    Mr. Flake. I thank the chairman. I apologize if this ground 
has already been plowed, but has there been any mention of the 
Eskom application or South Africa application for the World 
Bank loan just approved? Can you tell me what the U.S. position 
on that has been, Dr. Pershing?
    Mr. Pershing. Yes. Thank you. No, it did not come up yet, 
Mr. Flake, and thank you for the question. It was an internal 
discussion of quite some extent. We looked carefully at, in 
fact, the conversation that you had with Assistant Secretary 
Carson when he was here where I think you also raised a great 
deal of concern about it.
    We ultimately abstained in that vote, and the reason we 
abstained was the following: The first is that on the basis of 
a number of factors which govern the individual project 
acceptance in our internal process, they didn't quite meet 
those standards. In fact, they didn't meet those standards. 
There were questions about how the product was managed.
    There were questions about the greenhouse gas emissions 
associated with an effort to create a substantial amount of 
electricity, 4,800 megawatts. It is a huge plant. It is an 
enormous plant, which had a very small ancillary component that 
dealt with renewable energy, but didn't in any fashion address 
the greenhouse gas emission to the Center.
    But why did we not just vote no? We didn't vote no because 
at the end of the day there is a very clear, ongoing 
development need in the continent and in South Africa 
particularly where they have a concern about the adequacy of 
electricity supply, about the interruptability that we have 
seen because they have reduced capacity and had additional 
growth in demand and that that meant that we needed to give 
them some flexibility and some leeway.
    We are trying to make clear as we work forward with the 
South Africans that this is going to be an evolving policy for 
us; that we do intend to hold people accountable for the 
greenhouse gas emissions associated with these kinds of 
projects. We can't dismiss that in a long-term trend, but 
neither are we going to be categorical and say it is you or 
nothing and we will block things that don't make sense.
    In this instance, there is a balance that we could achieve 
if the product did go forward. We understand that it would go 
forward. The abstention was meant to reflect our concern about 
the process, but also our understanding of the dynamics inside 
of the country.
    Mr. Flake. Mr. Moore, do you want to add anything to that?
    I read that the U.S. Treasury put out a statement basically 
saying we oppose this, but we are not going to oppose it. I 
just want to express my concern that it seems, and I myself 
lived in South Africa for a while, Namibia as well, Zimbabwe as 
well. The needs are certainly there.
    And South Africa obviously wants a nuclear future. They 
have one plant now, but certainly that is where they see 
themselves over the next several decades and that is where they 
want to go, and I hope they do. I hope we go a lot further in 
that direction.
    But in the meantime, it is very difficult for them, given 
what they have, to do anything but what they proposed, and I 
hope that it is understood--this is putting aside all questions 
about World Bank loans and everything else--that if we try to 
dictate policy to countries, developing countries in this 
fashion, and simply say that despite what your energy needs 
might be and the expense were you to go to another energy we 
simply aren't going to support you, that is difficult I think 
on not just South Africa, but certainly all of sub-Saharan 
Africa.
    I would just caution that we ought to tread lightly there 
and recognize the needs that are there and the capacity that 
they have financially. So with that, I yield back.
    Mr. Payne. Thank you. Ambassador Watson?
    Ms. Watson. Thank you, Mr. Chairman. The President's budget 
requested $408 million for the Global Food Security Fund, and 
global hunger and food security is clearly a priority for the 
administration as it is among its three initiatives for the 
foreign aid budget.
    However, the administration has not set specific policies, 
even though the need for attention to growing food insecurity 
is quickly becoming apparent. In April 2008, a culmination of 
drought and failed harvest and the continued rise in global 
food prices has left at least 7 million people facing hunger in 
Ethiopia, Kenya, Somalia and Somaliland.
    According to the USAID Food Security Assessment for 2008 
and 2009, growth in the number of food insecure people is 
highest in sub-Sahara Africa. Food security has ties to climate 
change, as you have been mentioning all along, and climate 
adaptation must be a strong undercurrent of any food security 
initiative. We have been addressing that most of the morning 
here.
    So how will the administration balance providing food 
assistance to African nations with establishing food security 
through climate adaptation in African nations, and does the 
administration plan on advocating for the use of genetically 
modified plants and how do you plan to encourage use, 
especially since the overuse of GMOs is being called into 
question here in the United States? Either one of you or both 
of you, please.
    Mr. Moore. It will take me just a second to think to weave 
the number of pieces together. I would start by saying that if 
you look at what is coming out as the response for food 
security you will see that in terms of focus countries there 
are far more African focus countries than anywhere else.
    In terms of how that focus manifests itself and your 
discussion on some of the problems that face security, I think 
that Africa is one of the areas where increasingly research is 
being focused down on farming systems and focused on the 
ability of those farming systems to respond to a variety of 
changes, whether they are long-term or whether it is just 
climate variability. One of those is the use of biotechnology.
    I would point out that when biotechnology generally is used 
to respond to problems of Africa, it is used in a very 
different way than biotechnology is used in agriculture in the 
United States. Let me give you a fast example. When one looks 
at Africa and the application of biotechnology, what one tends 
to concentrate on is a crop's reaction to flowering time or 
flowering temperature, so one may want to engineer a crop that 
flowers at a higher temperature. One may want to highlight a 
crop's ability to survive in drought or a crop's ability to 
survive in flood.
    Those are very different biotechnology applications than 
applying biotechnology for a mechanized farm so that when one 
weeds on that farm one can use a herbicide that kills weeds, 
but allows the plant to remain. So biotechnology often is 
characterized as a single type of technology. It is a 
technology that responds to a wide range of agricultural 
problems.
    Yes, we tend to advocate biotechnology as being potential 
to solve the problems I highlighted early on, and I think over 
time you see that a larger number of Africans and, more 
importantly, African farmers are making use of biotechnology in 
their production mix. I hope I have answered all of your 
question.
    Ms. Watson. Yes. You are alluding to most of my concerns. I 
just returned from Ethiopia, and I have been working with a 
group called Light Years Intellectual Property because there, 
as you know, in the northern part of Ethiopia they grow one of 
the finest coffee beans that has contributed to the massive 
success of Starbucks.
    Mr. Moore. Yes.
    Ms. Watson. However, the return, the value of return to the 
farmers was very nil. I do believe in climate change. I have 
seen it. I come from southern California. You know, it never 
rains in southern California. Are you kidding? Constantly it 
has been raining. And so climate is indeed changing.
    What we realized there in the part of Ethiopia--we were in 
Addis Abeba, but we were talking about where the farmers live--
is that they really lacked a lot of the information necessary 
to continue to grow the kind of fine crops. They have four 
different levels of coffee beans.
    And so we found that helping them brand, patent, copyright 
and promote and bargain so they can get a return and then 
improve and continue to farm, that a lot of education was 
necessary and so we were talking about USAID and how we can 
help these farmers not only in that area of Africa, but in 
other countries and particularly the underdeveloped countries.
    The International Relations Committee has been looking at 
ways we can improve not only in the USAID programs, but in 
other programs as well. And so in terms of climate change and 
in terms of the knowledge that the farmers have the things they 
grow and not only grow, but make naturally, what are your plans 
in terms of really helping the individual farmers?
    Now, this particular program, IP, Light Years IP, will 
continue to do what its mission is. And so what kind of support 
can we expect from the administration?
    Mr. Moore. I would say that one of the things we are doing 
as we look at that sort of agricultural support is not only 
looking at the production of crops, but looking at the crop 
throughout its entire value chain.
    You have mentioned coffee. One of the interesting things 
about coffee, you know it is graDed in the 100 points and once 
you get above 80 points each point that you gain the coffee 
goes up geometrically, not arithmetically, in terms of price, 
but by not focusing on the value chain we miss many of the 
prime opportunities.
    If a coffee cherry is harvested and it is gotten to a 
washing station in under 4 hours rather than the average 4 
hours then that coffee will tend to grade five points higher. 
That has nothing to do with the growing of the cherry. That has 
to do with the movement of the cherry from the farm to the 
washing station.
    So in many cases what we are looking at is what is taking 
place across the value chain and where are the areas of the 
value chain where a farmer is missing the opportunity to 
improve the quality of the crop from the consumer's perspective 
and therefore missing out on price.
    Much of that low-priced coffee that you talk of occurs 
because farmers are harvesting that coffee and walking it to a 
washing station and taking 10 hours to do that. If they are 
provided with a bicycle and can get it there in 2 hours, there 
is five points right there and an increase in price, so one of 
the things we are doing is looking at value chains more 
completely and trying to capture opportunities that can provide 
payback to farmers.
    Ms. Watson. Yes. Who has that responsibility? Where does it 
reside?
    Mr. Moore. The responsibility for?
    Ms. Watson. You are saying what we are looking for. What 
department?
    Mr. Moore. Well, we have been working on that directly with 
coffee producers and coffee firms in the middle. I have not 
done anything directly in Ethiopia, but I have done things 
directly in Rwanda where we have worked with a crew that has 
come in and designed a bicycle that can actually carry bags of 
freshly harvested coffee and get them to washing stations in 
half of the time, enabling those farmers to benefit.
    So that is something that we and AID have been looking at 
with both the farmers and with the middle persons who are 
involved in the washing and the further production of the 
coffee.
    Ms. Watson. Thank you so much. Thank you, Mr. Chairman.
    Mr. Payne. Thank you. Ms. Lee?
    Ms. Lee. Thank you very much, Mr. Chairman. I apologize for 
not being here during your testimony, but I have been looking 
through it and am really delighted to see you here and welcome.
    I hope my question is not redundant. I know at least with 
regard to my resolution it probably isn't. I introduced H. Con. 
Res. 98, which is a congressional resolution that recognizes 
the disparate impact of climate change on women and efforts of 
women globally to address climate change.
    This resolution affirms the commitment of Congress to 
support vulnerable populations, including women, to prepare and 
to build and adapt to the impacts of climate change. Of course, 
we know that women are particularly vulnerable to the impacts 
of climate change and are often responsible for those tasks 
that are climate sensitive--gathering fuel wood, water, 
producing food for the family. Women produce over 50 percent of 
the world's food. In Africa it is up to 80 percent.
    At the same time, because women play such a vital role, it 
is essential in engaging them in a community's effort to adapt, 
so I want to find out, first of all, if you are doing anything 
and what you are doing to ensure that women are engaged, as 
well as what we are doing to respond to their unique needs as 
we move in this direction.
    And then secondly, many of us were quite concerned about 
the Bush administration's decision to walk away from the Kyoto 
Protocol in I guess it was 2001, how critical now is the United 
States' legislation to garnering the full participation of 
major and emerging economies around the world and how do we get 
back into Kyoto?
    What do we have to do in this regard and the impact of 
delaying the legal codification of the United States' climate 
commitments through such legislation. What are the impacts of 
that?
    Thank you again, Mr. Chairman. Thank you.
    Mr. Moore. Why don't I start with the women portion and 
turn it over to Jonathan for the remaining portion.
    As you have laid out, we have a clear understanding of the 
disproportionately large role that women play, particularly in 
production and particularly in agriculture, and as we have been 
designing the Feed the Future Initiative have tried to 
highlight both how one works with women and meets the unique 
needs of women.
    Let me give a couple of examples. If one is working on how 
one conveys a new technology and the use of new seeds and an 
increasing use of fertilizer, and let us say one has generally 
for the world looked at designing that technology for 
communication for someone with a sixth grade education and one 
comes into an area where women only have a third grade 
education, then the design of how one conveys that information 
has to be changed, so we are actively looking at things like 
that.
    We are actively looking at how do we increase the number of 
women who are working on agricultural research and development 
because we find they communicate to other women better in 
conveying some of those technologies. When one looks at water 
and the application of water, one has to look at what are 
technologies that women actually can employ in supplementing 
radon fed agriculture with other forms of water.
    So I think that as we look at some of the major areas where 
climate change intersects with women such as agriculture that 
people have finally got it that one has to quite consciously 
target responses that are responses targeted for women so that 
women, whatever their differences are, are able to respond and 
increase their production and productivity.
    With regard to Kyoto and the other parts, I will turn it 
over to Jonathan.
    Mr. Pershing. Thank you very much, and thank you for the 
question. I just wanted to add one point to what Franklin said 
about the women's issues.
    Secretary Clinton has been extremely engaged in this, and 
Miland Revere, who I am sure you work with quite a lot, is 
extremely active not broadly only in the women's issues, but 
also specifically in the questions of women and climate change. 
We have had a series of discussions with her. It has been on 
the agenda.
    There are now a series of women's groups and it is a 
separate coalition that engages in international negotiations, 
so at the international level there is also an increasing 
understanding that we have to address specific populations, not 
merely collective----
    Ms. Lee. Sure. And let me just say I hope you all would 
look at this resolution because I would like Congress to be on 
record supporting this, and that is exactly what H. Con. Res. 
98 would do.
    Mr. Pershing. So I look forward to seeing that. The second 
question that you asked really is with regard to the 
international process and how Congress is received. Let me just 
reiterate a point I made, which is that it is incredibly 
helpful that you collectively on the House side did do the 
American Energy and Climate Act. It has an enormous impact. It 
changed the dynamic.
    We had come to the negotiations with a history that was of 
disavowing the reality of the issue, and the fact that we could 
have Congress standing behind the President saying it is real, 
it is urgent and we are beginning to move forward made an 
enormous difference.
    We will still see enormous frustrations if there is not 
legislation, and that means clearly that both houses have to 
move. I think there has been a great deal of discussion in the 
international arena by other countries waiting on us and so I 
think we will continue to see that as long as we don't have a 
coherent and a visible strategy.
    With regard to Kyoto, Kyoto expires in some fundamental 
sense at the end of the first commitment period unless it is 
continued, and we are not a party to the Kyoto Protocol. I 
don't believe it is likely we will become a party based on what 
is currently going forward from Congress and the 
recommendations being made, but we have got other proposals 
that I think would do some of the critical things that the idea 
of an international agreement would solve.
    In particular, we would like to set some goals for where we 
want to be. The Copenhagen Accord gave us a scientific number 
that said let us try to keep below a two degree warming. We 
want to set countries with flexibility for what they can do 
most effectively at home and urge them to do that in the 
context of a long-term, low emissions development strategy.
    So now your development programs with a footprint that is 
sustainable, which means substantial reductions globally, but 
think about those in terms of policies and individual measures. 
Don't dictate from some center, but give countries the capacity 
and then help them in producing, and that is going to require 
some assistance.
    Ms. Lee. Sure.
    Mr. Pershing. So on the assistance side----
    Ms. Lee. And finally, Mr. Chairman, let me just say, 
though, I think what you said makes a heck of a lot of sense 
that we will do this anyway, what Kyoto requires, but the 
symbolism and the principle of the United States being part of 
Kyoto and the Protocol and going back into that, that overall 
effort to me just makes a heck of a lot of sense.
    I wish we could figure out a way that the United States 
could once again be part of the global community and be part of 
the Kyoto Protocol. Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much. Mr. Smith wanted a quick 
question.
    Mr. Smith. Thank you, Mr. Chairman. The information or the 
ability to predict with some certitude is an important 
question. I met with the people who did the number crunching 
for CBO when H.R. 2454, the cap in trade bill, and asked them 
their methodology, how they came to their conclusions. I met 
with them for about 1\1/2\ hours on February 4 in my office.
    And they, and they have done this in their CRS report, have 
said that CRS focuses on estimates for the year 2020. Any 
estimate beyond that point or any cumulative estimate to 2030 
or beyond should be viewed with the utmost skepticism. I do 
believe that our policies need to be grounded in a transparent, 
science-based approach to enhance our understanding of 
methodology employed.
    I would ask both of you if you would to elaborate on 
exactly--please, exactly--and maybe you need to do this for the 
record because both of you have information. You quote the IPCC 
panel, its findings that rain-fed farming may drop in some 
African countries by 50 percent by 2020.
    How is that arrived at? The details. I mean, in reading 
that panel's report I was struck by how many times the word 
could was used over and over. Now, of course science is not 
hard and fast sometimes in terms of its predictions, but that 
word needs to be emphasized I think if we are going to make 
policies based on it.
    And then the idea that we could disappear from the African 
continent, as I mentioned before, entirely by 2080. You know, 
CBO would say at least on terms of some of its predictions 
after 2030 we are rolling the dice. How was that arrived at, 
the exact methodology if you could?
    Dr. Pershing, your point that South Africa, and this is 
looking back, has electrified its communities and grown its 
economy, has seen its emissions rise above 30 percent between 
1990 and 2005. Who did that study? Was it peer reviewed? How 
credible is that study?
    And then finally, when you say that net crop revenues could 
fall by as much as 90 percent by 2100. Again, we are looking 90 
years out. I really want to know, and I think everything has to 
be science based. Who did that work? Was it transparent? 
Somebody conflicting views, were they shown the door, because 
that is something that is coming out after those emails have 
surfaced.
    I want good policy--I think we all do--in a bipartisan way, 
but it has to be based on science, and exaggerations do the 
cause of environmental protection a great disservice. So if you 
could give us the specific facts of how that was arrived at?
    Mr. Pershing. Let me just say a few things. The first one 
is that with regard to the South Africa numbers, those come 
from South Africa, so they are governmental numbers.
    They are drawn from and corroborated by sources of the 
International Energy Agency, which puts out carbon numbers, as 
well as by a program at MIT that puts out land use and forestry 
numbers. They have been amalgamated, but the South African 
Government has those same numbers, so that is where those 
particular ones come from.
    With regard to the long term, I think that is a----
    Mr. Smith. Do you believe they are accurate?
    Mr. Pershing. I believe they are the best we have. They are 
consistent with numbers that the U.S. Government puts together 
through the Energy Information Administration, and they seem to 
be based on a variety of factors such as global trade in 
certain kinds of commodities. In the case of South Africa where 
a nontrivial share is actually a local commodity like the coal 
side it is a bit more difficult, but we have pretty good 
information based on the electricity sales, which is often 
where these are derived from.
    My guess is, yes, they are pretty accurate. Is it accurate 
to within a tenth of a percent? I wouldn't bet on that. Is it 
accurate within a percentage or two? I probably think it is. It 
is probably pretty good in that regard. There are interesting 
questions, of course, about intensity numbers, which are based 
on the economic quality of a country, and an informal and a 
formal economy certainly enter in there so you have some 
uncertainty, but that is where those come from.
    With regard to the larger set of numbers, there is a great 
deal of literature that has been reviewed. I am very happy, and 
we will arrange to make sure that you get a copy of the 
material that supported it. The IPCC does this work through a 
process where you have a committee that is selected by an 
international group with all countries weighing in--the U.S. 
also weighs in--where you select authors, and the authors are 
then tasked with the job of finding and collating material from 
the literature.
    That literature has certain restrictions. It must be 
available to the public. It must have been peer reviewed, 
although in some cases they also use governmental literature 
which has been reviewed within a government, but has a 
different kind of a status than one reviewed in a scientific 
journal. Both of those tend to be used.
    That then goes to an international review where the 
governments around the world and private scientists around the 
world are invited to provide feedback. In the current rules and 
practices of the IPCC, every single comment must have a 
response, and that is made public as well, and that is on the 
Web site of the IPCC. It is pretty extensive.
    One last thing, the email controversy that has erupted that 
has been really quite significant over the course of the last 6 
to 8 months. There was a report that was released yesterday 
that was undertaken by the U.K. Government to evaluate this 
university in the U.K. that was deemed to have done some bad 
work. They have completely been exonerated. Their view is that 
it was good science. The comment that was made was that there 
needs to be more care taken in the writing of emails.
    There have been two detailed reports. This is the second of 
the two, both of which cleared them of wrongdoing, but we would 
be very happy to send you, because I think the point you are 
raising is one that we want to be airing and make very 
explicit. Bad science leads to bad policy.
    Mr. Smith. Especially those longer term predictions, which 
our own CBO, we have a great deal of confidence that they try 
to do an honest job, yet they say after 2030 forget it.
    Mr. Pershing. Maybe I could add one point if I could, sir.
    Mr. Smith. Yes.
    Mr. Pershing. The issue of the long term I think speaks to 
two questions. I would take with an enormous dose of salt the 
precise number. What I would take with a great deal more worry 
is the trend, and that trend is consistent in the CBO studies, 
as well as in these.
    So if I say it is 90 percent or it disappears or I say it 
is down by 50 percent and it is really devastated, they both 
are trends that I worry about based on today's numbers, and 
those are the kinds of things that I think we have to be 
planning for.
    A lot of our infrastructure has a much longer lived 
timeframe than just 10 years out. It has a farming community 
program, an urban development program and a transport program 
that is 30 and 40 and 50 years into the future, so that larger 
framework does have a value even if the precision is certainly 
questionable.
    Mr. Smith. Great.
    Mr. Payne. Thank you very much, both of you. I concur with 
Mr. Flake--that is interesting--on the Medupi coal fired plant. 
There was a lot of controversy regarding the coal fired plant 
in South Africa to loan before the World Bank the $3.7 billion 
loan.
    However, many of us interested in Africa, interested in the 
environment, sort of 100 percent of environmental issues, 
however, did feel and wrote the World Bank and actually 
personally spoke to Mr. Zoellick and our Members of Congress 
about the United States not opposing the loan from the World 
Bank because if there will be development and the cleanest type 
of technology is going to be used in this plant and also there 
are renewable energies included in that loan such as wind and 
solar, we felt that it would hamper development not only in 
South Africa, but this plant will have an impact on Southern 
Africa countries around South Africa that we should support the 
plant. I kind of agree. I was glad that the United States 
decided to abstain at the most because I think there was a 
leaning toward perhaps voting against it.
    I just also agree with Representative Smith that I 
certainly don't feel that abortion has any place in any 
country's policy as a way of controlling population, and I 
don't think anyone here supports that. However, I do feel that 
there does have to be some consideration for family planning, 
family spacing.
    Using the case of Rwanda, Rwanda is a little bit smaller 
than Maryland. Rwanda has twice as many people as Maryland, 
about 10.5 million people. Maryland has about 5.5 million. The 
difference in Maryland and Rwanda is that only about 40 percent 
of the land, 50 percent of the land at the most, is where 
people live. Much of it is forest, hills, and therefore if you 
take the population of Rwanda and compare it to the density of 
Maryland you would find that it is probably about four times as 
dense as Maryland or higher, perhaps even five times more 
people in the land space in Rwanda than is in Maryland.
    Now, I think that a President is going to have to decide, 
especially since over 50 percent of the population is under 18, 
what will be the situation 20 or 30 years from now if family 
planning and family spacing by economic development, by 
education is not promulgated, and so these are some real 
problems.
    As we know, close to 1 million people were killed in 100 
days in Rwanda with the genocide. Now, that was other issues. 
However, many issues were kind of involved in that close to 1 
million people in 100 days. So I think that we really have to 
encourage family planning and work with, like I said, economic 
development, empowerment of women, education of women, those 
issues that will tend to strengthen the family.
    Just finally, not that there is anything that has to do 
primarily with what we are talking about, but I just thought 
you might be interested in the fact that the European countries 
are shutting down their airspace and canceling flights because 
of what is reported as a massive cloud of volcanic ash, which 
has been morphed over the western and northern European 
countries, posing a danger to flights. They have canceled 
flights in the U.K., Ireland, Sweden, Belgium, Denmark and the 
Netherlands because of the volcanic eruption, which broke 
through the icecap and has this ash.
    So this world is becoming much more fragile, and this whole 
question of the environment is something that we are really 
going to have to I think pay more attention and invest more 
financially in. But let me thank this panel. It was a very 
interesting discussion, and we appreciate your participation.
    We will now bring up the second panel.
    [Pause.]
    Mr. Payne. Thank you. We will now have our second panel. We 
welcome you here. We would like to certainly welcome Ambassador 
Leon Rajaobelina, chairman of the board of the Madagascar 
Foundation for Protected Areas. Ambassador Rajaobelina had 
extensive experience and public service in the financial sector 
around the world before assuming the position as chairman of 
the board for the foundation.
    Ambassador Rajaobelina served on the Conservation 
International Board of the Directors. He has held multiple 
positions with Conservation International, including his 
current position as regional vice president for African 
programs.
    From 1991 to 1994, Ambassador Rajaobelina worked for 
Sanapar, a public investment company, as the chief executive 
officer. He was later appointed as the Ambassador from Malaysia 
to the United States in 1983 and completed his ambassadorship 
in 1989. He also served as executive director of the 
International Monetary Fund.
    Ambassador Rajaobelina is a member of a number of projects 
and groups, including the World Bank Group's Extractive 
Industries Advisory Group promoting best practices in 
extractive industries, as well as a Trustee to the American 
World Heritage Fund. The Ambassador holds a degree from the 
Institute of Political Affairs in Paris, France.
    Next we have Dr. Frederick ``Fred'' Boltz, senior vice 
president for global strategies at Conservation International. 
Dr. Boltz has served as senior vice president since 2009. He 
has held several posts while at Conservation International, 
including vice president of CI's Conservation Strategies 
Division from 2003 to 2009 and senior director of the Peoples 
in Protective Areas Department from 2003 to 2005. He also 
served as a CI technical advisor for the Zahamany Integrated 
Conservation and Development Project.
    Prior to joining Conservation International, Dr. Boltz was 
a consultant for Forest Economies and Management at the Rwandan 
Association for Environmental and Integrated Development and as 
a program officer for the Forest Management Trust, Inc. 
Madagascar's Protected Area Systems from 1997 to 1999.
    Dr. Boltz holds a Ph.D. and master's in science and natural 
resources economies from the University of Florida. He has 
authored and co-authored several works and publications, 
including A Climate for Life, Meeting the Global Challenge, 
Journal of Forest Economies, Forest Policies and Economics, and 
The Wealth of Nature: Ecosystem Services, Biodiversity and 
Human Well-Being.
    Finally, we have Dr. Kenneth Green, resident scholar at the 
American Enterprise Institute. Dr. Green is an environmental 
scientist and has over 10 years of environmental policy 
experience at various institutions in California and in Canada.
    Prior to joining AEI, Dr. Green served many posts in 
environmental science and policy, including his work as 
executive director for the Environmental Literacy Council from 
2005 to 2006, chief scientist and director of the Center for 
Studies in Risk, Regulation and Environment at the Fraser 
Institute, from 2002 to 2005, and was an expert reviewer for 
the United Nations Intergovernmental Panel on Climate Change.
    Dr. Green holds a doctorate of environmental science and 
engineering from the University of California-Los Angeles and a 
master's of science in molecular genetics from San Diego State 
University. In addition, Dr. Green has authored various works 
and publications including National Review Online and the 
American and the Wall Street Journal Europe, as well as a 
secondary school textbook entitled Global Warming: 
Understanding the Debate.
    Thank you very much. We will start with you, Your 
Excellency.

 STATEMENT OF HIS EXCELLENCY LEON M. RAJAOBELINA, CHAIRMAN OF 
   THE BOARD, MADAGASCAR FOUNDATION FOR PROTECTED AREAS AND 
 BIODIVERSITY (FORMER MALAGASY AMBASSADOR TO THE UNITED STATES)

    Ambassador Rajaobelina. Thank you, Mr. Chairman. Mr. 
Chairman, I have prepared a summary of my testimony, and I 
respectfully ask that my complete testimony be entered into the 
record.
    Mr. Payne. Thank you. Without objection.
    Ambassador Rajaobelina. Chairman Payne, Ranking Member 
Smith, honorable members of this committee, thank you for the 
opportunity to appear before you today to discuss the current 
and prospective impacts of climate change in Madagascar and 
other African countries.
    It is true that I come today here on behalf of the 
Madagascar Foundation for Protected Areas and a former 
Ambassador to the United States from Madagascar. However, 
especially following the presenters of this morning, I am 
convinced that my testimony represents the common dilemma faced 
by other African nations.
    In Madagascar, as in other African countries, we are 
greatly concerned by climate change and believe that we are 
already living with its impacts. Average surface temperature of 
the African continent has increased by about .5 degrees 
Centigrade over the last century, and climate change models 
suggest that Madagascar, as well as all of Southern Africa, are 
going to be among the most affected regions on the planet by 
climate change.
    In Madagascar, over the last decade we have experienced 
severe droughts in the south of the country and intense 
cyclones followed by rain, heavy rain, in the north and east. 
Studies throughout Africa show that rural communities are 
experiencing local changes in climates that are shortening 
growing seasons and thus impact crop yields.
    For people in poverty and simply trying to survive on a 
daily basis, even small climatic changes that affect a harvest 
can be catastrophic. Adaptation response that improves the 
ability of the rural poor to cope with events for which they 
cannot plan are clearly going to be needed to create social and 
economic resilience--developing is the key word--to climate 
change.
    For example, in the dry south of Madagascar USAID programs 
are already working to introduce drought-resistant crops that 
are better suited to new or more variable climate conditions 
that have been mentioned this morning by my friend, Franklin 
Moore. These types of programs show great promise, but the 
reality is that decision makers do not yet have the tools to 
precisely predict the changes that will occur, and planning 
around this uncertainty is indeed difficult.
    Building resilience to climate change impacts will 
therefore be a fundamental element of addressing rural 
development in African countries. We need to learn from past 
agricultural project failures and go beyond cookie cutter 
solutions. Rural communities have a better understanding of 
local challenges and resources that are unique to their region, 
and when given the right resources they are often the best 
placed to develop successful solutions.
    I believe that much of the adaptation responses that we 
need for rural communities can be achieved through the 
provision of resources to allow for flexible and simple 
mechanisms such as small grants, microcredit, training, 
information or access to good quality crops. Through a 
participatory process that includes community and government we 
can better address climate challenges that are hard to plan for 
and address key development needs of these communities.
    Moreover, healthy ecosystems and biodiversity underpin a 
community's ability to adapt to climate change. Human well-
being, functioning ecosystems and climate change are intimately 
interlinked. Natural ecosystems provide many of the basic 
materials of life for rural, poor and vulnerable communities in 
Africa, including fresh water, food and renewable natural 
resources that often provide incomes.
    In Madagascar, it has been shown that most of the important 
sites for ecosystem services, as I will mention, are also the 
most important area for biodiversity. To repeat, ecosystem 
services, their health and the biodiversity that maintains them 
are essential for human well-being and critical for the 
sustained long-term development needs of rural communities in 
Africa in the face of climate change. So understanding climate 
impacts and the adaptive strategy engaging communities and 
valuing ecosystem services will be critical for tackling 
climate change in rural Africa.
    The Copenhagen Accord, which has been referred to this 
morning, explicitly recognizes that reducing the loss of 
tropical forest is critical if we are to reduce the carbon 
dioxide emission. Conservation and natural resource management 
programs have achieved notable success and developed most of 
the tools needed to halt deforestation.
    For example, in Madagascar the actions to combat 
deforestation of which the United States Government has been a 
key supporter have managed to reduce national carbon dioxide 
emissions by over 10 million tons per year over the last 15 
years, so funding for REDD+ would provide the boost that we 
need to allow us to scale up our localized successes.
    Regarding the important commitments that were made in 
Copenhagen, I want to come back to what has been said this 
morning by Dr. Pershing. It is vital that the pledges made in 
Copenhagen are acted upon urgently and that the money is used 
in part for better planning and the preparation of national 
strategies for REDD, as well as monitoring and verification of 
carbon dioxide emissions.
    Finally, it is key that the United States strengthen their 
past and current investments with a predictable stream of long-
term funding as was proposed in the House passed climate and 
energy bill as mentioned this morning. For instance, since 1990 
USAID has invested in Madagascar more than $120 million in 
well-targeted environment and development activities that most 
demonstrably reduced deforestation while at the same time 
supported the sustainable livelihoods of hundreds of thousands 
of poor rural Malagasy people. The same is true throughout 
Africa.
    The lessons, experience and human capacity that have 
resulted from such programs can and should be immediately put 
to work to combat greenhouse gas emissions from the destruction 
of natural ecosystems. Harnessing nature's ability to provide 
such solution will help vulnerable communities deal with the 
impacts of climate change and their development needs.
    I am pleased that the proposed United States budget 
recognizes urgency for immediate climate change funding for 
developing countries such as Madagascar. I do hope that the 
U.S. Congress will maintain this level of funding for climate 
change while at the same time protecting existing funding 
needed for other critical areas, such as development, 
education, health and conservation.
    Chairman and honorable members of the committee, I thank 
you for the opportunity to submit my statement.
    [The prepared statement of Mr. Rajaobelina follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Payne. Thank you very much.
    Dr. Boltz?

 STATEMENT OF FRED BOLTZ, PH.D., SENIOR VICE-PRESIDENT, GLOBAL 
             STRATEGIES, CONSERVATION INTERNATIONAL

    Mr. Boltz. Chairman Payne, thank you very much. Chairman 
Payne, Ranking Member Smith and esteemed committee members, 
thank you for the opportunity to appear before you today to 
discuss the important challenge of climate change in Africa, 
the solutions within our reach and the key leadership role that 
the United States has played and remains poised to fulfill 
across the African continent and to the majestic island of 
Madagascar.
    Please permit me today to present a brief summary of my 
submitted testimony.
    Mr. Payne. Without objection.
    Mr. Boltz. I would like to begin by saluting the testimony 
provided by Ambassador Rajaobelina. The social, economic and 
environmental challenges faced in Madagascar are mirrored 
across the African continent and indeed throughout the 
developing world and will only be exacerbated by climate 
change. The opening remarks that you made, Mr. Chairman and 
Ranking Member Smith, eloquently describe these important 
challenges that we face as a global community.
    The urgency of climate change as a global security issue 
has been highlighted in studies and public statements by 
leading U.S. military intelligence and security agencies, which 
consistently point out that climate change could have 
significant geopolitical impacts around the world, contributing 
to poverty, environmental degradation, spurring conflict and 
further weakening fragile governments. This is of particular 
relevance across the African continent.
    Current science reveals the potential magnitude of 
challenges that Africa will face. A consensus model, for 
instance, of climate change developed under the IPCC and 
downscaled to the African continent suggests that under present 
trajectories Rwanda's current climate conditions will disappear 
entirely and that mean temperature temperatures in west Africa 
may increase some five degrees Celsius by the end of this 
century.
    The already stressed natural resource sector across Africa 
will be further complicated by climate change, which threatens 
to exacerbate the scarcity of fresh water, endanger food 
security, increase extreme natural events such as floods and 
droughts and heighten the vulnerability of local populations to 
poverty, disease and conflict.
    Further complicating the daunting challenges of reducing 
poverty, conserving natural ecosystems and sustaining peace, as 
the U.S. has been invested for decades, climate change moves 
the goalpost for sustainable development and security, and on 
global security issues like climate change the U.S.'s continued 
leadership will be critical.
    The U.S. Government has led the world in promoting sound 
governance and sustainable management of natural resources 
throughout its many agencies working internationally. 
Throughout much of the developing world, the U.S. Government 
programs have reduced poverty, sparked economic development, 
increase biodiversity and natural resource conversation, 
strengthened institutions and governance and reduced conflict.
    The knowledge, stability and investment that the U.S. 
Government has fostered in places like Namibia, Madagascar, the 
Congo Basin, through its flagship projects truly have no equal. 
Through these efforts and building upon sound science and 
practical field experience, the United States and NGOs like 
Conservation International and our 1,200 partners globally have 
the tools necessary to confront the challenges posed by climate 
change.
    For instance, scientific capacity to diagnose the 
vulnerability of natural ecosystems to climate change provides 
a basis for understanding and acting in a very cost effective 
manner to mitigate the catastrophic impacts of climate change 
and to build the climate resilience and adaptive capacity of 
human and natural communities. Productive and resilient natural 
ecosystems are essential to adapting to climate change.
    Measures to ensure the conservation of these natural 
ecosystems and their services such as freshwater provision, 
pollination, mitigation of natural disasters, et cetera, will 
moderate the impacts of climate change on human communities. 
Natural ecosystems are the source of livelihoods for the rural, 
poor and vulnerable communities throughout Africa, providing 
drinking water, food, fuel and fiber, fertile soils and 
productive fisheries.
    CI's long history of conservation success in Africa, 
supported by U.S. Government efforts from Liberia to 
Madagascar, provides this very basis for securing the natural 
ecosystems critical to maintaining climate resilience and 
adaptive capacity of communities and confronting the global 
climate change mitigation challenge.
    Countries across the globe are considering measures to 
transition to low carbon development for a sustainable future. 
Throughout Africa, from war torn developing states such as 
Liberia to emerging leaders such as Rwanda and South Africa, 
national governments and civil society are working jointly to 
forge a path to sustainable green economies. And a global 
solution to the climate crisis, which Dr. Pershing referred to 
earlier, offers an immediate entry to this green sustainable 
development pathway.
    Reducing emissions from deforestation and logging, or 
REDD+, constitutes approximately one-sixth of annual greenhouse 
emissions globally. Cutting deforestation in half offers about 
one-third of the cost effective technologically available 
solutions by 2020 to meet global stabilization targets to keep 
temperature rise below two degrees Celsius. In addition, REDD 
offers an unprecedented economic opportunity providing capital 
for national development based upon a global willingness to pay 
for preserving forests.
    A case in point. At the request of the Government of 
Liberia, CI conducted an analysis of the potential for REDD to 
contribute to Liberia's economy and found that net revenues of 
$30 million per annum can be generated over a 25 year period at 
a modest payment of $5 per ton CO2 emissions avoided.
    But this requires up front costs of building the systems of 
governance, retooling the forestry and agricultural sector and 
aligning investment to secure this conservation of these 
important areas, while improving livelihoods of those securing 
the permanence of those emissions reductions.
    The U.S. Government is presently contemplating a $120 
million investment in the agricultural sector in Liberia, which 
in combination with a bilateral program supporting REDD would 
provide the platform for stimulating a transition to this low 
carbon development and green economy, a development model on 
which green means not only ecologically friendly, but also 
economically prosperous, and that is fundamental.
    These measures are within our immediate reach. We have the 
knowledge and capacity, and the U.S. Government has built a 
track record of success in conserving natural ecosystems, 
stimulating economic growth, sound governance and market 
solutions to development crises. With resolute action to 
provide technical and financial assistance, the United States 
can again lead African nations on their transition to low 
carbon economies and great global security.
    Distinguished Chairman, committee members, please accept my 
thanks again for this distinct honor of addressing you today.
    [The prepared statement of Mr. Boltz follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you.
    Dr. Green?

   STATEMENT OF KENNETH P. GREEN, D.ENV., RESIDENT SCHOLAR, 
                 AMERICAN ENTERPRISE INSTITUTE

    Mr. Green. Yes. Thank you, Chairman Payne. Thank you, 
Ranking Member Smith. Good to see you again, Representative 
Flake. Thank you all for inviting me here to speak today. Along 
with my remarks I have submitted a pertinent study to the 
record called Climate Change: The Resilience Option, that I 
would like accepted into the record.
    To conceptualize my remarks, I will offer a bit of 
background. As was mentioned, I am an environmental scientist 
and policy analyst by training, having spent the last 20 years 
studying environmental policy at research institutions in 
Canada and the United States. My beliefs regarding climate 
change are based on what I learned in my doctoral studies, 
supplemented by another 20 years of reading in the scientific 
literature, as well as the reports of the IPCC, two of which I 
appraised as an expert reviewer for the United Nations 
Intergovernmental Panel on Climate Change.
    For all of that time, I believe that manmade climate change 
is real and climate signs both legitimate and important. I 
believe that all things being equal, doubling of the 
concentration of greenhouse gases in the atmosphere would 
likely raise the global average temperature by about one degree 
Centigrade, posing a mixture of moderate risks and moderate 
benefits.
    I am not convinced that strong positive feedbacks will 
boost global warming to extreme levels. As physicists such as 
Richard Lindzen of MIT pointed out, the opposite in fact seems 
to be true. Negative feedbacks, as are the norm in nature, seem 
to be canceling out some of the expected impact of humanity's 
greenhouse gas emissions.
    This comports with both common sense and an understanding 
of the biological concept of homeostasis. The earth has been 
hotter and cooler in the past, greenhouse gas levels have been 
higher and lower in the past, but the earth has never run away 
into a permanent swelter or a permanent deep freeze. Feedback 
mechanisms tend to keep the earth's climate at a reasonable 
midpoint, subject to ice ages and warm periods.
    If the climate were so unstable that sudden pulses of 
greenhouse gases such as recent human emissions or volcanic 
emissions could easily make it run away we would not be here. 
So while I do not and never have denied the reality of climate 
change, I do believe it is more moderate than people have been 
led to believe, and I believe the institution of climate 
science has been badly perverted--no offense intended--by its 
entanglement with government.
    In particular, the priority the government has placed on 
having predictions of the future in order to execute long-term 
plans has led to far too much emphasis placed on computer 
models that in reality are little more predictive than 
computerized horoscopes. Trying to plan national economies and 
a global economy have wasted vast amounts of time and money 
that could have done much more good invested elsewhere.
    Now, the issue du jour. How do we help Africa manage its 
climatic risks, which again are real and can be significant, 
depending on where it is you happen to be on the African 
continent. First, the single most helpful thing we can do for 
Africa is to help her people become wealthier.
    Wealthier societies, especially those with democratic 
institutions and market economies, are naturally resilient to 
environmental variability and disasters of all sorts. Promoting 
the development of liberal democratic and market economic 
institutions in Africa should be our country's primary focus.
    Second, we should stop trying to impose expensive and 
immature technologies on ourselves or on others. Despite the 
optimistic chatter of would-be rent seeking wind and solar 
energy tycoons, we do not currently have the technologies 
needed to curb greenhouse gas emissions significantly without 
breaking the bank. To the extent we deploy those technologies, 
we will slow our rates of economic growth and technological 
development while raising the costs of our exports, including 
food, medicinal exports and biotechnology and agricultural 
exports.
    To the extent we impose such technologies on developing 
countries, all we will do is slow their development and hinder 
their most urgent mission of lifting their people out of 
poverty. It is hard to see how any of that helps the people of 
Africa or anyone else. In any event, serious people must 
recognize that any near term greenhouse gas emission reduction 
we might achieve will be swamped by Chinese emission growth, 
making the actions all pain for no gain.
    Finally, we need to avoid making things worse by 
inadvertently encouraging climatic risk taking. When 
governments get involved in infrastructure development and 
disaster relief, they can often unintentionally promote risk 
taking by members of the public.
    For example, here in the United States when people who live 
at the water's edge or in floodplains are hit by storms or 
floods, our government intervenes not only to help them avoid 
harm, but to keep them financially whole as well, including the 
property that they have invested in, so we see them build back 
over and over again in climatically fragile areas. That 
describes most of the history of the state I grew up in, 
California, where if it doesn't burn down, slide down or shake 
down, it gets built up right where it was.
    And too often government actions lead people into harm's 
way through infrastructure creation that leads them to 
climatically fragile areas or facilitating a dependency on a 
particular type of climatically sensitive resource flow, such 
as water. As Dr. Pershing pointed out, previous government 
efforts didn't take climate variability into account so they 
would build a hydro station not thinking that that water may 
not always be there.
    The government action of building the hydro station is what 
moved the people into the climatically dangerous place, and 
government infrastructure development is chronically bad at 
this in terms of developing highways that lead people to spread 
out in urban sprawl, developing water systems that substitute 
water rates for farming so that we wind up farming in places 
people really should not be farming, like the California desert 
for that matter, and so it is very important that we not make 
things worse, which we have a history of doing.
    Finally, I believe and trust in social resilience and 
building wealth, but I think that there is a reasonable desire 
to ensure against the possibility of higher levels of warming 
so we should trust in resilience, but tie up our camel. We 
should do increased R&D funding to look for inexpensive, easily 
deployed, low greenhouse gas power sources to make people more 
adaptable to climate fluctuations.
    If you have a functioning HVAC unit, you can deal a lot 
more with fluctuations in the climate than if you have none, 
but if you have that HVAC unit you have electricity, and in 
many cases in Africa they have none, so it is very important to 
electrify and give people the ability to respond.
    We should also do research in geoengineering in case we 
need to physically engineer the climate locally or globally if 
in the rare case or unlikely case the models get it right of 
extreme predictions in the future. Those tools are the things 
we can best do. Fallback tools like that are the best things we 
can do for Africa and ourselves as well, as well as helping 
them develop economically and with democratic institutions.
    I thank you for your attention and look forward to your 
questions.
    [The prepared statement of Mr. Green follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Thank you very much. Let me thank the entire 
panel for your testimony.
    And let me begin, Mr. Ambassador, by asking you about your 
country in particular. If you would describe the current and 
prospective impact of climate change in Madagascar and what 
kind of adaptation and mitigation needs exist in order for you 
to keep on top of the issue?
    Ambassador Rajaobelina. Okay. Thank you, Mr. Chairman. As I 
mentioned, we have been very concerned about this climate 
change in Madagascar for the last 4 or 5 years. As a matter of 
fact, we are one of the countries which have really been a 
pioneer in establishing scientific bases on the impact of 
climate change, both on special, on the economy and also in 
devising adaptation and mitigation.
    In terms of mitigation, as I said we are one of the 
pioneering countries in developing pioneer projects or pilot 
projects to mitigate the impact of climate change, the projects 
some of which is being funded by USAID. In terms of adaptation, 
we have also been a pioneer. For instance, we are amongst the 
few countries in the world which have already developed what is 
called the REDD preparation plan, which is a condition for to 
receive REDD funding in the future.
    So I would say that on the whole we have not yet reached a 
point where we have already established a full-fledged strategy 
for adaptation and mitigation, but we are on the way to develop 
such a strategy. Thank you.
    Mr. Payne. Thank you very much. Would you also describe the 
role of Africa's National Adaptation Programme of Action, the 
NAPA, in allowing African countries to tap into national 
climate change funding streams? How has the development of 
these NAPAs impacted Africa's perception and its policies 
toward climate change adaptation?
    Ambassador Rajaobelina. As Dr. Pershing has mentioned, you 
know that we came to Copenhagen, all African countries united 
around a common strategy led by the Prime Minister of Ethiopia, 
and there is I think a common consensus view that we should 
approach these climate change problems united and using all the 
avenues in terms of negotiation as well, but in terms of 
securing funding for the climate change programs.
    I don't know if you are aware that following the Copenhagen 
Accord the core group--the emergency fund, the $3.5 billion. 
There was a core group of contributors that has been 
established on which Congo and Niger are the members who 
represent Africa in precisely developing ways and the process 
through which these funds could be used as quickly as possible, 
the $3.5 billion.
    Because you know the problem is that commitments are there, 
but we don't know yet how they are going to be used, through 
what channels they will be used, bilateral or unilateral, and 
the African countries have decided to take a common view on 
that and to be very active on this core group, which will meet 
in Oslo in May again in parallel with the negotiation on UNF.
    Mr. Payne. Thank you. And finally, in your opinion do you 
believe that there been adequate broad public and civil society 
input in development of Africa's NAPA programs to date?
    Ambassador Rajaobelina. To be very frank, Mr. Chairman, I 
don't think so. Not yet. We still need education. This is still 
a learning process, and we have to develop good communication 
to alert people. From what I have seen in my own country, 
clearly the people, the entire population, are not fully aware 
of the impact of climate change. They know the impacts. They 
know, but they don't know what comes from that.
    The level of the rural communities, they see the changes in 
weather, the changes in the water, the water regime and so on, 
but they don't know exactly. They don't link that with what is 
climate change, for instance. That is why we have so much 
problem in linking, in your opinion, the factors. Deforestation 
is a key to attenuate and mitigate the climate change impact.
    Mr. Payne. Thank you very much. Dr. Boltz, the Africa 
Carbon Credit Exchange is aimed at providing a vehicle for 
generating economic growth and facilitating funds for the 
development of environmental protection and climate change 
mitigation projects.
    Can you describe how the ACCE can impact mitigation of GHG 
emissions and, secondly, how can the U.S. better support the 
development of the ACCE?
    Mr. Boltz. Thank you, Mr. Chairman. I cannot speak directly 
to the ACCE. I am not familiar with that mechanism.
    Mr. Payne. Okay.
    Mr. Boltz. My apologies.
    Mr. Payne. All right. Let me ask you then. In your opinion, 
what climate change adaptation technology, development and 
transfers, capacity building and research do you view as the 
most pressing continent-wide in Africa?
    Mr. Boltz. Thank you, Mr. Chairman.
    Mr. Payne. Why don't you push that button?
    Mr. Boltz. Okay. Thank you. How is that?
    Mr. Payne. Great.
    Mr. Boltz. Thank you, sir. Thank you, Mr. Chairman. The 
adaptation needs across Africa, and we found this in a study 
conducted in Madagascar particularly, as a top line priority 
relate to the water stresses that may occur under different 
scenarios of climate change.
    As we know, much of Africa is an arid environment already. 
Regions are water stressed, and many areas, especially areas 
that are more degraded and fragmented, are reliant upon 
conserved riparian forests surrounding rivers and the 
conservation of watersheds for the sustained provision of flows 
for drinking water, agriculture, et cetera.
    Without question, the most fundamental adaptation need is 
to understand how these water systems may change and what 
measures need to be taken in terms of restoring and maintaining 
natural ecosystems that are capturing and providing water to 
the African community at large.
    Mr. Payne. Okay. Thank you very much. Dr. Green, you 
mentioned several things. You say that too often government 
actions unintentionally tell people not to worry about climate 
risks as they are being bailed out. A number of issues you 
bring out certainly make a lot of sense as you talk about 
southern California.
    In your opinion, in general do you feel, just generally 
speaking, that the question of climate change and global 
warming is exaggerated not based on total good science? I have 
an idea of where you stand, but could you just elaborate on 
that a bit?
    Mr. Green. Sure. I will try not to go very long. Basically 
the core of climate science is the understanding that 
greenhouse gases trap outgoing radiation from the earth's 
surface.
    As Dr. Pershing alluded, that has been known for a very 
long time and that humans can change the climate has been known 
for a very long time as well. Thomas Jefferson wrote about it, 
for example, at the local level how agriculture can change 
local climates. So that part of climate science is and always 
has been real and is, generally speaking, solid.
    But the basic physics, those basic physics suggest about a 
one degree Centigrade rise in temperatures for a double of 
atmospheric CO2 levels. To get anything higher than that, you 
leave the realm of what I consider to be normal science and you 
start having to make assumptions. You make assumptions about 
feedback loops. You make assumptions about future growth and 
development patterns and how many greenhouse gas emissions, how 
many tons there will be in the year 2075.
    You make predictions about economic growth, which of course 
look at the recent economic recession. I can guarantee you 
every IPCC document had the economic trajectories of the United 
States and the European countries dead wrong for the last 10 
years. Just wrong.
    And so the prediction aspect, I do not consider that to be 
science. I consider that to be modeling or estimating or 
guesstimating in many cases. It is not something that can be 
demonstrated and boiled down to a chemical in a glass case that 
you shine the light through and show how it traps heat.
    And so my basic opinion is the actual real science is sound 
and robust, but it has been exaggerated partly by governments, 
partly by the media, partly by environmental groups, and they 
have folded into their word science what historically speaking 
has never been part of science, but instead has been part of 
governance, which is--government--predicting things and 
projecting things. That is not really science. We can't 
foretell the future. We can't forecast the future.
    Mr. Payne. And why do you think they do that? I mean, what 
is the overall goal and objective of that, in your opinion?
    Mr. Green. Well, it is an understandable thing. As Dr. 
Pershing also pointed out, governments act over very long 
timeframes. Because they are so large, they are one of the only 
entities that can do that. Only the government could say we are 
going to build an entire Federal highway system for the 
national defense.
    They act on long timeframes and they would like to have 
some certainty about what they are doing, and so they ask 
scientists for information. The problem is that those 
scientists who give them sort of weasel word things and say 
well, I don't really know and I can't really tell you, those 
scientists don't get much attention. They don't get much in the 
way of publications, and they certainly don't get called to 
testify at hearings very often.
    And so the scientists who have been willing to most 
exaggerate their ability to predict the future have been the 
ones woven most intimately into the climate negotiation process 
leading to this overreliance on mathematical climate models 
that predict the future.
    Mr. Payne. Thank you. Dr. Boltz, do you concur in the 
opinion given by Dr. Green in general?
    Mr. Boltz. There are many elements of Dr. Green's testimony 
and opinion that----
    Mr. Payne. You probably need to put that mic a little 
closer to you.
    Mr. Boltz. Dr. Green points out an important consideration 
which Dr. Pershing also pointed out, which is that we can have 
greater certainty of the trends in greenhouse gas accumulation 
and climate change than in the precision of long-term magnitude 
of change.
    I would disagree with or contest, as Dr. Green has posited, 
the belief that climate change will be retained within a one 
degree increase with a doubling of concentrations is more 
credible than any other projection that has been presented.
    I think he has stated it as a belief, and I think that we 
should take it as such. I think he does acknowledge the 
uncertainties underlying his own ability to say with certainty 
and confidence what is likely to happen.
    I think fundamentally, though, we should not be designing 
our own strategies as a global community and as a leading 
nation in that global community based upon the least likely 
risk, but rather understand what are the magnitudes of risk 
that we may confront given trends in climate change, in 
atmospheric greenhouse gas cumulation and both short-term 
higher probabilities of impacts related to the vulnerability of 
communities, the increased water scarcity, et cetera, and 
potential long-term impacts.
    I think that if we act on a presumption of relative 
security that we are acting in error and not taking into 
account the measures that we need to take short-term on the 
basis of a precautionary principle to prevent the most 
catastrophic consequences.
    Mr. Payne. Thank you. Thank you very much. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
again pick up on the earlier conversation we had with Panel 1.
    Dr. Green, you had said in your writings, especially the 
AEI report, that it is fair to say that the scientific 
understanding of which factors contribute to change in the 
earth's climate is still in a very early stage. Even the 
experts at the IPCC acknowledge this to be the case.
    You know, when the general media picks up and says the 
science is settled, we are causing it and that is the general 
impression that has been created both pre Copenhagen and post, 
could all of you speak to that issue of do you agree and how 
early in the stage are we about manmade climate change?
    Mr. Green. May I? At least since you named me I will go 
first if you don't mind, gentlemen.
    Ambassador Rajaobelina. Please.
    Mr. Green. In the IPCC reports and I think in that study 
there is a very interesting chart that everyone should see that 
reflects the level of scientific understanding of the different 
factors which can move the climate, which can influence the 
climate. They are called forcings in the scientific parlance.
    Some of those forcings are considered well understood such 
as the actual greenhouse--CO2, nitrous oxide and a few others--
but for many of them the actual level of scientific 
understanding listed is either somewhat low, low or very low. 
Now, that has moved up over time. Each of the succeeding IPCC 
reports has had a similar chart.
    But if you look at the possible range of those influences, 
some of them are so broad as to be able to swamp out much of 
what the human greenhouse gases can do, and that is where the 
understanding sort of comes off of the rails is what we don't 
know about particulate matter, what we don't know about clouds 
especially, what we don't know about water vapor and its role 
on mitigating or accelerating greenhouse gas induced warming.
    Airplane contrails, which amazingly enough cover enough of 
the earth's atmosphere to influence the global climate. The 
contrails are the bright lines left behind the airplanes, 
right? And so those levels of scientific understanding are 
admittedly low by the United Nations modelers, and that is what 
goes into these questions of for a given amount of increasing 
greenhouse gases how much warming do you get out the other end.
    When you strip away the things we are making assumptions 
about, the basic physics--and this is my belief, but it is also 
simply what you get when you work through the equations of heat 
retention in the atmosphere. You get about one degree 
Centigrade. And so that is where I believe we need to improve 
our level of scientific understanding, especially regarding 
water vapor and clouds, which are just overwhelmingly dominant 
influences on the climate.
    Mr. Smith. Would anybody else want to touch it? Ambassador?
    Ambassador Rajaobelina. I am not a scientist, so I am not 
going to debate a scientific question. Dr. Green is much more 
qualified.
    But I am coming back to what Franklin Moore said that as 
far as we are concerned there are two things. One is the trend 
is there. We see that. We saw that in the past periods, and if 
the trends are continuing we will have one to two degrees 
increasing. Dr. Green has accepted that.
    And that will impact on our daily life as the committee 
through the water regime, rain regime and the drought and the 
recurrence of very tough cyclones and so that is what we are 
fixing on the ground, so how to prepare people and to make 
people resilient to the changes we are witnessing in our daily 
life.
    Mr. Boltz. Thank you, Mr. Smith. I am sorry. I am still not 
quite accustomed to this. Thank you for the question. It is an 
important question.
    And I think that to me fundamentally the issue is do human 
activities result in greenhouse gas emissions? Yes. Does the 
increase in the concentration of greenhouse gases in the 
atmosphere result in a warming effect? From what we are seeing, 
yes? How do other influences--the albedo effect, et cetera--
offset that? Great uncertainties.
    But we have two certainties implicit, one that human 
activities are a current source of emissions and that increases 
the risk of global warming due to an enhanced atmospheric 
greenhouse gas concentration, implying that we should be 
cognizant and concerned with efforts to mitigate the emissions 
from human activities to again increase that risk of increasing 
atmospheric greenhouse gas concentrations leading to 
catastrophic climate change.
    I think the physics are clear related to emissions and 
greenhouse gas concentrations, the predictions less so, but 
fundamentally is that causal relationship that we have an 
opportunity to influence. Thank you.
    Mr. Smith. Let me ask a couple of questions and then yield 
to the gentlemen to respond. I wonder if it is prudent for 
people, very heavily credentialed people like Dr. Pershing and 
Franklin Moore, to quote the IPCC when they make these 
Draconian predictions of net crop revenues could fail by as 
much as 90 percent by 2100.
    You heard the preceding conversation. I mean, I just want 
to get to the truth and I really want to get there as quick as 
we can. If we don't know it, we ought to admit we don't have 
the clarity that we purport to have, and that is why my 
conversations with the CBO and others have been discouraging as 
to how much they don't know, and yet they put on paper numbers 
that then become branded that this is what the cost will be, 
this is what the consequences will be.
    Even the idea that we could disappear from the African 
continent entirely by 2080. You know, I see that, and not 
knowing how that was arrived at and Dr. Pershing said and Mr. 
Moore that they will get back to us on that. The methodology is 
extremely important to know whether or not if that were 
something that is real we need to be obviously taking more 
aggressive action.
    Secondly, I was very encouraged in direct answer to my 
question is the Obama administration seeking to combat climate 
change in Africa by reducing the number of African children by 
way of population control. Dr. Pershing said in a word no.
    I raise this issue because there are a number of groups, as 
I said earlier, who just see the number of African children 
being born as a negative. The U.N. Population Fund in mid 
November came out and said that the battle against global 
warming could be helped by slowed population growth, and then 
they said the U.N.--this is an AP story. The U.N. Population 
Fund acknowledged it had no proof the effect population control 
would have on climate change.
    As a matter of fact, two WHO leaders, experts, warned about 
the dangers of linking fertility to climate change and they 
said, ``Using the need to reduce climate change as a 
justification for curbing the fertility of individual women at 
best provokes controversy and at worse provides a mandate to 
suppress individual freedoms,'' wrote WHO Diarmid Campbell-
Lendrum and Manjula Lusti-Narasimhan, two WHO experts, and that 
is in the AP story.
    Why do I raise this? Because there are people who are 
trying to link the one child per couple policy with its 
Draconian effects on women. Five hundred women commit suicide 
every day--every day; not week, month; every day--in China 
because the invasion of the state into their private affairs is 
so huge. Of course, they are missing at least 100 million girls 
in China as a direct result of sex selection abortion and the 
requirement of only one child per couple.
    The Financial Post in Canada, the editor in chief, as a 
matter of fact--her name is Diane Francis--wrote an opinion 
piece called The Real Inconvenient Truth, and she writes, ``The 
whole world needs to adopt China's one child policy.'' Now, she 
wrote this on December 8, 2009.
    She said, ``Ironically, China, despite its dirty coal 
plants, is the world's leader in terms of fashioning policy to 
combat environmental degradation thanks to its one child per 
couple policy.'' She says to the world, ``The fix is simple. 
None will work unless China's one child policy is imposed.'' 
She calls that smart policy.
    You know, if you are willing to kill children and slaughter 
millions of children--billions in her estimation--you are going 
to reduce carbon breathers known as little children. 
Ironically, Diane Francis has two children, and I wish she 
would have as many children as she would like, but she is 
suggesting, and she does it in very, very somber tones, that to 
save the planet we need to eradicate children.
    She says by 2075, under her proposal there would be 3.4 
billion humans on the planet. You only get there through 
massive intrusion into the privacy of women and families. You 
only get there through coercion as China has proven since 
adoption in 1979 of its one child per couple policy.
    And even at Copenhagen, China daily said population control 
is the key to the deal and talked about how many billions, 
millions of tons of CO2 emissions a year have been reduced by 
their Draconian policy of slaughtering children. So I am very 
concerned that this unwittingly perhaps may unleash more drive 
in Africa, putting more little babies and children, African 
babies, at risk.
    In the Mail, the London Mail, there was a big article 
recently, and I would ask people to read it, where women talk 
about having abortions to help the environment and that this is 
the means to reducing the carbon footprint of their families by 
destroying their children. That is perverted, frankly. That is 
sick, and we should not wittingly or unwittingly put our arms 
around that kind of policy, in my opinion, and promote the 
elimination of children as a means of saving the planet.
    And yet in the Financial Post it couldn't be more clear. A 
very well educated woman with a very fine skill for writing 
says we need China's one child per couple policy. That is why I 
am so worried about Africa. Given all of the power to persuade 
and to intimidate that the international community has on some 
governments relying on foreign aid, there may be a go along 
acceptance of that kind of Draconian measure.
    So again I was encouraged by Dr. Pershing's statement, but 
I think we have to be very careful that while we combat 
environmental degradation we don't consider killing children as 
part of the solution. So if any of you would like to touch on 
that.
    And finally again I want to bring up the unintended 
consequences that Dr. Molly Brown and others have suggested. 
When the cost of energy goes up, as she pointed out in her NASA 
study--it was joined by two others who wrote it, and I do 
believe this is an unintended consequence--the ability to get 
food in Africa and elsewhere will become an enhanced challenge.
    She says use of biofuels will put direct upward pressure on 
food pricing, and cap in trade is likely to increase energy 
prices and it will be--this is her words--a spillover effect on 
food prices due to the coupling of the food and energy markets 
raising food prices. The last thing Africans need are higher 
costs for food.
    Mr. Green. I will emulate the Ambassador and point out what 
I am not, which is I am not a demographer or a specialist in 
population trends or population control issues. It is not an 
area in which I have done much work or writing, so I will in 
general leave that to them, although I would certainly agree 
that coercion should have no place. Coercion of any sort should 
have no place in climate policy, and the ultimate form of 
coercion is almost certainly that sort of one child policy that 
China has invoked.
    So I will address the other points instead, and I will be 
brief. If you want to know where these predictions of future 
climate change come from and possible impacts on Africa and the 
like, you need to look to a book called The Special Report on 
Emission Scenarios by the U.N. Intergovernmental Panel on 
Climate Change.
    That book, which is created separate from the other science 
reports, creates a series of what they term story lines and 
scenarios of what they think the future may be like under 
certain conditions such as increased use of fossil fuels, 
increased use of nuclear fuels, higher rates of population 
growth, lower rates of population growth, and they draw these 
out, often extrapolating them to the year 2100 from what they 
either see or they think is going to happen.
    That generates a concentration of CO2 in the atmosphere. A 
scientist plugs that into a model and asks how much will that 
warm the globe based on what their model tells them. The model 
will come back with a number, and other models are used to say 
well, how will that affect certain areas of the globe.
    The IPCC acknowledges that trying to go below the 
continental level is not yet possible with any precision and so 
you can make predictions at the continental level that it would 
be slightly warmer or slightly cooler. Subcontinental level 
predictions have virtually no utility other than as a what if 
thought exercise.
    So that is where that data comes from, and I would offer to 
submit my copy of it to the record, but it is about this thick 
and it cost me quite a lot of money, so I am afraid you will 
have to acquire your own.
    On the last point of unintended consequences, I mean, this 
is absolutely correct. We did this with ethanol. The ethanol 
problem has not been solved and won't be solved by cellulosic 
ethanol or other types. What we are doing is we are putting a 
bounty on land for biofuels, and as long as you place a value 
on a square of land that is higher for fuel than for food, 
farmers will respond and they will grow fuel and they will not 
grow food.
    This is a real problem with biofuels around the world, 
especially in Africa and in the equatorial regions because if 
we place a bounty on biodiesel, raising soybeans for biodiesel, 
hungry people will raise those soybeans at the expense of the 
rainforest around them. They will cut them down and plant and 
they already are.
    So the biofuel issue is one of the greatest unintended 
consequences you can possibly imagine and yet we still have it 
as a major aspect of U.S. policy to boost biofuel use not only 
here, but around the world. It really is a bit of a travesty.
    Mr. Boltz. Thank you, Mr. Smith, for the questions. I 
similarly do not have the expertise to speak on the issue of 
population control. As you have described it, certainly I would 
not be in favor of Draconian population control, killing 
children to address any issue personally nor the institution 
that I work for.
    I don't have the expertise to speak of what would be 
appropriate family planning measures. However, as Congresswoman 
Woolsey referred to earlier, access to education, to health 
services, to nutritional services, providing the tools for 
sound family planning should be a priority for all nations on 
earth. Access to the basic facilities for care and sound 
upbringing of healthy families is fundamental.
    To the other two questions, is it prudent to quote the 
IPCC? The IPCC is currently our best source of scientific 
information and acknowledges its own limitations and 
shortfalls. The IPCC provides several scenarios of possible 
climate change impacts. Is it prudent to cite them?
    To the extent that they do provide a credible source and 
their shortcomings and limitations are explicitly acknowledged 
and considering that the role of government on behalf of its 
public is to provide for the measures needed to ensure the 
greatest probability of sustaining the welfare of current and 
future generations, I think it is prudent to follow the 
globally recognized science while, as Dr. Pershing 
acknowledged, noting what key gaps there are in science. Dr. 
Green has mentioned some others related to the albedo effect.
    Noting the key limitations and those areas that must be 
strengthened to provide greater certainty and to provide a more 
rigorous scientific basis which you have also mentioned as a 
principal concern. So is it prudent? I would agree. I would say 
yes. Is it sufficient? Not yet. We need to continue to build 
that scientific certainty and the basis for making sound 
decisions.
    To the last question on energy and food security, I think 
as a principle we would be wrong to try to address issues of 
climate change and climate security in isolation from issues of 
food security because they are intertwined and interdependent 
issues that must be resolved in tandem.
    Increasing scarcity of fuels upon which we are presently 
dependent will lead to an increase in energy prices and trigger 
increases in the price of food. Increases in the demand for 
land for biofuels or for the production of other commodities 
such as soy, such as cattle, will also lead to increasing 
scarcity of land available for agriculture and increasing food 
prices. These issues are intertwined and must be dealt with in 
an integrated and compatible manner.
    The measures that Mr. Moore referred to earlier I think are 
critical. Notably, increasing agricultural productivity, 
sustaining long-term climate security and adaptation capacity 
is also related to increasing the productivity of lands and the 
ability to sustain production on those lands.
    Similarly, restoring degraded lands and identifying the 
possibility for cultivating biofuels, for instance, on degraded 
lands as opposed to using fertile lands that can produce for 
agriculture should be a policy. Understanding the carbon debt 
that can be incurred by biofuel productions and establishing 
stringent standards for investment in biofuels such that that 
carbon debt is acknowledged and we are not incidentally 
creating higher debt by converting lands to biofuel use is 
fundamental, and that should be an element of U.S. investment 
policy.
    Lastly, there has been some efforts and Conservation 
International has been among those leading the development of 
this process. There is a committee established which is a 
Responsible Biofuels Producers Association that is talking 
about how do we make the best use of degraded lands, different 
sorts of biofuel products in different areas and address the 
issue of carbon debt given that there is an emerging and will 
be a future demand for biofuels production, but that it poses 
the serious risks that you enunciated.
    That group is a private sector group working with civil 
society in Indonesia, also looking at Brazil, and is making 
great gains, and the extent to which we can provide policies 
and investment that favors more responsible production is 
certainty in our long-term interest. Thank you.
    Ambassador Rajaobelina. Mr. Chairman, I think I can be very 
brief because most of what I wanted to say has been said by Dr. 
Green and by Dr. Boltz.
    Regarding the question of population and climate change, I 
certainly agree with Congressman Smith that it would be really 
appalling to link climate change to extreme conditions such as 
the one proposed by some quarters for the one child policy. 
Clearly population problems are not and cannot be dealt in such 
a way, but through various programs, from various approaches as 
mentioned by Congressman Woolsey.
    Regarding energy, that is really the key because the more 
the prices of energy increase, fuel and so on, the more it has 
an impact on households to the extent that in Africa and in 
Madagascar in particular most of the energy consumed by 
households comes from charcoal, so the more increase in energy, 
increase in fueling, the price increase, the more they are 
going into natural resources to produce. That is one problem.
    Then there is a problem mentioned by Dr. Green and Dr. 
Boltz, the question of energy versus particulate. Clearly it is 
a real problem. It is a real problem. The last few years that I 
have been going to--and so on, and that has been at an expense, 
putting it in very simple terms. That has to be carefully 
considered as explained by Dr. Boltz.
    Mr. Payne. Well, let me thank the panel for your expertise. 
I also would like to before we adjourn acknowledge the 
Ambassador from Madagascar who is with us. Thank you for 
attending, Mr. Ambassador.
    With that, I would like to ask for unanimous consent that a 
statement from JoDee Winterhof, vice president for policy and 
advocacy from CARE USA, be a part of the record, in addition to 
several questions submitted by Representative Blumenauer.
    I will now ask for unanimous consent that members have 5 
legislative days to revise and extend their remarks. Without 
objection, so ordered. Thank you. The meeting stands adjourned.
    [Whereupon, at 12:44 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               
[Note: Written responses were not received to these questions prior to 
printing.]

                                 <all>

</pre></body></html>
